<html>
<title> - [H.A.S.C. No. 111-119]AL QA'IDA IN 2010: HOW SHOULD THE U.S. RESPOND?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 111-119]
 
            AL QA'IDA IN 2010: HOW SHOULD THE U.S. RESPOND? 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 27, 2010

                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-293 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                                     



















                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Tim McClees, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, January 27, 2010, Al Qa'ida in 2010: How Should the 
  U.S. Respond?..................................................     1

Appendix:

Wednesday, January 27, 2010......................................    35
                              ----------                              

                      WEDNESDAY, JANUARY 27, 2010
            AL QA'IDA IN 2010: HOW SHOULD THE U.S. RESPOND?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Clarke, Hon. Richard A., Adjunct Lecturer in Public Policy, 
  Belfer Center for Science and International Affairs, John F. 
  Kennedy School of Government, Harvard University...............     5
Coll, Steve, President, New America Foundation...................    10
Zarate, Hon. Juan Carlos, Senior Adviser, Transnational Threats 
  Project, Center for Strategic and International Studies........     7

                                APPENDIX

Prepared Statements:

    Clarke, Hon. Richard A.......................................    44
    Coll, Steve..................................................    66
    McKeon, Hon. Howard P. ``Buck''..............................    41
    Skelton, Hon. Ike............................................    39
    Zarate, Hon. Juan Carlos.....................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Shuster..................................................    79

Questions Submitted by Members Post Hearing:

    Mrs. McMorris Rodgers........................................    89
    Ms. Sanchez..................................................    85
    Mr. Skelton..................................................    83
    Mr. Smith....................................................    85
    Ms. Tsongas..................................................    85
    Mr. Wilson...................................................    87
            AL QA'IDA IN 2010: HOW SHOULD THE U.S. RESPOND?

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, January 27, 2010.
    The committee met, pursuant to call, at 10:07 a.m., in room 
HVC-210, Capitol Visitor Center, Hon. Ike Skelton (chairman of 
the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today the House Armed Services 
Committee meets to receive testimony on ``Al Qa'ida in 2010: 
How Should the U.S. Respond?''
    Our witnesses today: Richard Clarke, currently an adjunct 
lecturer at Harvard University and previously the national 
coordinator for security and counterterrorism; Juan Zarate, 
senior advisor with the Center for Strategic and International 
Studies and the former deputy national security advisor for 
combatting terrorism; Steve Coll, president of the New America 
Foundation and the Pulitzer Prize-winning author of ``Ghost 
Wars: The Secret History of the CIA, Afghanistan, and Bin 
Laden, from the Soviet Invasion to September 10, 2001.''
    We welcome you, and we thank our witnesses for being with 
us.
    Since the attacks on September the 11th, 2001, the United 
States has acted forcefully to disrupt and defeat al Qa'ida 
[AQ] and to eliminate their safe havens in Afghanistan and 
Pakistan. I firmly support our ongoing efforts in Afghanistan. 
I believe it is vital that we succeed there. And I commend the 
President on his recent decision to increase our force levels 
in that conflict.
    But as the attempted bombing of an airliner over Detroit on 
Christmas Day by an al Qa'ida affiliate reminds us, even as we 
pursue bin Laden and his allies in Afghanistan and Pakistan, al 
Qa'ida has continued to evolve as an organization and 
inspiration to terrorist groups around the world.
    In order for us to combat this evolving threat, I believe 
we must understand the state of al Qa'ida and how it has 
changed over the years. In this effort, the committee's hearing 
today with outside experts builds on the classified briefing we 
held recently in past full committee hearings. The Terrorism 
and Unconventional Threats Subcommittee, led by Adam Smith and 
Jeff Miller, have done great work in this area over the years 
and, I am sure, will continue to do so under the leadership of 
Chairwoman Loretta Sanchez.
    The title of this hearing, ``Al Qa'ida in 2010: How Should 
the U.S. Respond?'', poses a deceptively simple question that I 
hope our witnesses can help us with. But the real questions are 
harder: What is al Qa'ida today, and how has that organization 
evolved? How can the United States Government, in particular 
the Department of Defense, take effective action to end the 
threat posed by al Qa'ida, its allies, and its affiliates 
around the globe? What tools do we have, and how should we 
employ them? How can we undermine their media campaign and 
attempt to provide an ideology justifying attacks against the 
United States?
    In short, what actions can we and should we take to 
minimize the chances that we are faced with future attacks like 
the attempted attack on Christmas? I hope our witnesses can 
help us with these questions.
    By the way, this is a reminder. Today, a Members-only 
meeting, a China briefing, at 2:30 this afternoon in Room 2118, 
our new old committee room. And you will be pleased when you 
come back and see the work that has been done there.
    I turn to our friend, the ranking gentleman from 
California, Buck McKeon, for his comments.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 39.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. I would like to thank 
you for holding today's hearing on al Qa'ida and the continuing 
threat that it poses.
    For nearly two decades, al Qa'ida had waged war against the 
U.S., its citizens, and the modern world. We may not have fully 
realized the destructive nature of al Qa'ida until the tragic 
events of 9/11, but we must not allow our determination and 
vigilance to wane. We can be assured that al Qa'ida remains as 
relentless and as violent as ever, and today's hearing allows 
us to better understand al Qa'ida and what must be done to 
protect our Nation and its citizens.
    I would also like to welcome our witnesses. Your insights 
today are extremely important given the influx of additional 
troops to Afghanistan in support of General McChrystal's 
strategy and given recent events such as the Christmas Day 
airline bombing attempt and the Fort Hood shootings. We look 
forward to your testimony.
    We cannot forget that we are a nation at war. Al Qa'ida 
stormed into the public view with the horrific acts of 9/11 but 
well before that time had been plotting and acting against us. 
The 1993 World Trade Center bombing, the 1998 Embassy bombings 
in Kenya, the failed attack against the USS The Sullivans, and 
the successful attack on the USS Cole in 2000 all presaged what 
was to come in 2001. Al Qa'ida had already declared war on us. 
Only after the World Trade Center bombings, the Pentagon, and a 
Pennsylvania field were burning did we fully appreciate that 
fact.
    I was heartened when, on December 1st, 2009, President 
Obama officially took ownership of the war in Afghanistan and 
the broader war on terrorism during his speech at West Point. 
He is our Nation's Commander in Chief and plays the critical 
role of guiding the United States during wartime.
    Al Qa'ida, operating from safe havens in Afghanistan, 
brought war upon our Nation, and our message must be clear: We 
will not back down from those who seek to do us harm. We have 
denied al Qa'ida operating space in Afghanistan but must ensure 
our efforts to prevent Afghanistan from becoming a safe haven 
once again do not waver.
    The administration's decision to support General 
McChrystal's counterinsurgency strategy is an important step 
toward stabilizing the country and, importantly, in degrading 
al Qa'ida's operational capability. I am gravely concerned, 
however, about the announcement of a timeline in conjunction 
with the decision. We must allow events and conditions on the 
ground to be the basis for any decisions on our Afghanistan 
strategy, not Washington politics.
    And I have to wonder, has President Obama emboldened our 
adversaries by revealing a lack of commitment on our part? Or, 
like his proclamation that Guantanamo Bay would close by 
January 2010, does this hint to an administration that does not 
fully understand the ramifications of its actions and 
statements?
    We must remember, however, that Afghanistan is not the sole 
focus in this struggle. Pakistan is a key partner for us, as al 
Qa'ida has been forced to seek refuge in tribal areas 
controlled by the extremist Taliban. Pakistani forces have 
gained important victories in their attempt to root out al 
Qa'ida and its hosts from Waziristan and the Federally 
Administered Tribal Areas, but much more needs to be done. We 
must continue to support Pakistani efforts through intelligence 
sharing, operational support and security assistance with 
vehicles like the Pakistan Counterinsurgency Fund. And we also 
need to support the Defense Department's 1206 train and equip 
authority [National Defense Authorization Act Section 1206 
``Global Train and Equip'' Program], which it uses elsewhere, 
to ensure our partners in this struggle have improved 
capabilities to meet threats to security and stability.
    Al Qa'ida does not act alone and is a highly adaptable 
organization. It has leveraged a franchise system to bring 
like-minded groups around the world under its operational 
umbrella. Al Qa'ida in Iraq, al Qa'ida in the Islamic Maghreb, 
and al Qa'ida in the Arabian Peninsula [AQAP] have all sought 
to further al Qa'ida Central's goals.
    What al Qa'ida seeks is the time and space to allow its 
affiliates to rise. As in Iraq in 2006-2007 when al Qa'ida took 
advantage of ungoverned space to train, plan, and attack the 
vulnerable Iraqi Government as well as U.S. interests, al 
Qa'ida in the Arabian Peninsula seeks to gain ground in Yemen, 
where the government forces are fighting not only al Qa'ida but 
also an extremist Shiite insurgency for control of large areas 
of its country.
    Further, al Qa'ida is more and more willing to step out of 
the spotlight and allow other groups to act as its proxies. 
Lashkar-e-Taiba in Kashmir and al Shabaab in Somalia have 
helped al Qa'ida gain a broader audience and extend its 
operational reach. Al Qa'ida very quickly capitalizes on these 
groups' actions in the name of its grand strategy. Even in 
failed or thwarted attacks, al Qa'ida adjusts its message for 
greatest effect, always seeking to gain new recruits and 
enhance its brand image as effective and successful.
    Therefore, we must be very aware that a reduction in al 
Qa'ida's fingerprints on terrorist operations does not 
necessarily mean that the threat of al Qa'ida is diminished. 
Ideology, radicalization, and the media that are available in 
today's world provide a volatile mix for al Qa'ida to exploit, 
while complicating our attempts to identify and focus on al 
Qa'ida as an organization. The Little Rock, Arkansas, and Fort 
Hood shootings and Christmas Day bombing attempt all represent 
an increasing threat: that of radicalized individuals who 
attack either on their own or with minimal operational 
coordination with an al Qa'ida handler. The hand of al Qa'ida 
may not be nearly visible, but the threat remains.
    The challenges we face are many, but we absolutely must not 
fail to recognize that we are at war, and our enemy will seek 
any and all means to advance its cause. We are not facing 
common criminals. And this fact was reaffirmed on January 5th 
when the U.S. Court of Appeals for the District of Columbia 
Circuit upheld the right of the U.S. Government to detain 
combatants. This decision reaffirms the belief that the laws of 
war are the appropriate foundation for, and are needed in, our 
efforts against terrorists who may not wear uniforms, but who 
are waging war against us.
    I believe the administration would be making a very 
dangerous mistake were it to treat terrorists as common 
criminals. While al Qa'ida operatives may not wear uniforms or 
follow the Geneva Convention, we cannot ignore the fact that al 
Qa'ida is waging war against us and that terrorists are al 
Qa'ida's foot soldiers. They do not merely break civil laws but 
advance a strategy that seeks to topple governments through 
terrorism and other means. They cannot be viewed as anything 
less than prisoners of war.
    One would think that the President's policy toward 
Guantanamo Bay's detention facility would reflect the fact that 
we are at war. Yet he seeks to close the facility without a 
clear plan and return many detainees to countries rife with 
ungoverned spaces and al Qa'ida cells.
    The remaining population at Guantanamo Bay does not 
represent chance battlefield detainees or mere supporters, but 
hardcore operatives. Given recidivism rates that are 20 percent 
or higher, the President's position on detention and 
prosecution of these wartime detainees held there is especially 
alarming in its incoherence.
    In response to the administration's irresponsible handling 
of the detainee issue, we have introduced the ``Detainee 
Transfer and Release Security Act of 2010.'' This legislation 
will block transfers from Guantanamo to countries with 
ungoverned spaces, active al Qa'ida cells or networks, or 
confirmed cases of a former Guantanamo detainee who has 
returned to the fight. Our efforts would have blocked the 
December transfer of seven detainees to Yemen and last week's 
transfer of two detainees to Algeria.
    America cannot be complicit in allowing former detainees to 
return to the fight against the United States. Our policies and 
strategies must reflect the fact that we are at war. We should 
not simply close Guantanamo, and we cannot allow enemy 
combatants to return to the battlefield.
    In al Qa'ida's world view, the U.S. should not exist. 
Therefore, in this war, we must seek to defeat our enemy. 
Measures that fall short of that goal, denying al Qa'ida 
operating space and disrupting al Qa'ida operations, must not 
enter our lexicon or our thought process. I take it as a 
personal responsibility to remind my fellow Members, my 
constituents, and my colleagues throughout the government of 
what is called for in this great struggle.
    With the fact that we are at war clear, I look forward to 
our witnesses' input today. We are faced with an enemy that is 
adaptable, that leverages media extremely well, that promotes a 
twisted version of one of the world's major religions, and that 
ultimately is willing to outlast us if that is what is required 
of it. Your testimony will help us gain greater understanding 
of how to face those challenges and how we can best shape our 
strategy, policy, and actions to ensure that we defeat al 
Qa'ida in what can only be viewed as a war of survival.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]
    The Chairman. I certainly thank the gentleman.
    Again, we appreciate the witnesses testifying today.
    And we will start with Richard Clarke. Thank you again for 
being with us.

 STATEMENT OF THE HON. RICHARD A. CLARKE, ADJUNCT LECTURER IN 
  PUBLIC POLICY, BELFER CENTER FOR SCIENCE AND INTERNATIONAL 
    AFFAIRS, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
                           UNIVERSITY

    Mr. Clarke. Thank you, Mr. Chairman. It is always a 
pleasure to respond to your request for testimony or other 
assistance.
    You asked, What is the status of al Qa'ida, and what should 
we be doing in the way of response to it? These questions have 
been asked a lot since Christmas. I think we need to pause for 
a minute and ask ourselves, What would have happened in this 
country if that detonator onboard that Northwest/Delta flight 
had worked? Because that is really the only difference between 
a successful attack and the failure that occurred, is whether 
or not that detonator worked.
    And I am afraid that if it had worked, a lot of people 
would have jumped to, perhaps, the wrong conclusion. They would 
have thought that, because one single terrorist was able to 
penetrate our defenses and cause the deaths, perhaps, of 200 
Americans in the United States, that necessarily would have 
meant that al Qa'ida was resurgent or that there was some 
failure in the policies of the last administration or some 
failure in the policies of this administration. And the 
American people would ask themselves why it was the case that, 
over a decade after al Qa'ida became a major issue for the 
United States, that we had not been able to eradicate it.
    I think it is important that we ask ourselves these 
questions now publicly, because the difference between one 
detonator working and one detonator not working suggests to me 
that we could very well have a successful attack. And when we 
do, if we do, we shouldn't panic and we shouldn't necessarily 
jump to the wrong conclusions.
    So, in trying to answer your questions at a very high 
level, I have structured my response in the form of seven 
propositions. And I will try to go through them quickly, but 
they are available in the written testimony.
    The first proposition is that if al Qa'ida does stage a 
successful attack, it doesn't, in and of itself, indicate 
whether or not they are getting stronger or not; that lone 
operators will always be a threat, whether they are from al 
Qa'ida or from another organization. Modern societies are 
inherently fragile to lone-operator attacks. We saw that with 
Oklahoma City, where there were just two or three people 
involved. We saw it in the Washington area with the Washington 
sniper. We are always going to face a threat of lone operators.
    Secondly, many of the groups that we hear about, many of 
the attacks that we see that are labeled as ``al Qa'ida'' 
really are not al Qa'ida Central. They are groups that had 
existed for years, in some cases for a century, and have been 
relabeled or have relabeled themselves as al Qa'ida. And two of 
them, for example, al Qa'ida in the Maghreb and al Qa'ida in 
Mesopotamia, have actually imploded in recent years. They lost 
popular support because of their excesses, and they were also 
successfully suppressed by security forces.
    So I think we need to ask ourselves really, What is al 
Qa'ida? And perhaps the best way of looking at it is to focus 
on al Qa'ida Central, the organization that attacked us on 9/
11, the organization that, unlike the affiliates, has targeted 
the far enemy, which is the United States.
    And al Qa'ida Central has had its ups and downs. It was 
certainly very strong prior to 9/11. It was hit badly after our 
invasion of Afghanistan. It had a bit of a resurgence in the 
last several years, but in the last two years, with our 
increased tempo of operations against their sanctuary in 
Pakistan and with the Pakistani Government finally doing 
something about that sanctuary, al Qa'ida Central is a somewhat 
reduced threat than it was in the past.
    Nonetheless, there are affiliate groups that are of 
concern, and two of them in particular seem to have targeted 
the far enemy, the United States. Al Qa'ida in the Arabian 
Peninsula, based in Yemen, consisting largely of Yemenis and 
Saudis, seems to now have its intent on going after the United 
States, including here in the homeland. And certainly the 
Taliban is engaged in daily combat with the United States. A 
third group, al Shabaab in Somalia, may also be involved in 
preparing people to attack the homeland.
    Mr. Chairman, I will skip over the other propositions there 
in the testimony, but I think the chief point here is that the 
eradication of al Qa'ida is the work of a generation. It is not 
something that the American people should believe that any 
administration will be able to accomplish, nor should the 
American people expect that any administration will be able to 
prevent all successful attacks.
    And when and if an attack does come in the United States, 
despite all of our efforts and despite the fact that we are 
winning this war, we need to be nonpartisan, we need to be 
analytical, and we need not to panic.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Clarke can be found in the 
Appendix on page 44.]
    The Chairman. Thank you, Mr. Clarke.
    Mr. Zarate.

   STATEMENT OF THE HON. JUAN CARLOS ZARATE, SENIOR ADVISER, 
    TRANSNATIONAL THREATS PROJECT, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Zarate. Thank you, Mr. Chairman, Ranking Member McKeon, 
distinguished members of the committee. I am pleased to be with 
you today to testify, and I thank you for the invitation.
    I think it is an important moment to look at the nature of 
al Qa'ida, particularly given the past series of events over 
the last year, plots uncovered, Christmas Day failed attack, 
the growing role of al Qa'ida in the Arabian Peninsula, and, 
frankly, the continued allure of al Qa'ida's ideology, 
including in the homeland.
    Mr. Chairman, al Qa'ida is no longer the same organization 
we faced on September 11, 2001. In many ways, it has been 
decimated, with the core elements of the organization on the 
ropes. Al Qa'ida's senior leadership is being methodically 
destroyed, its primary physical safe haven is being undermined, 
its ideology is being rejected within Muslim communities around 
the world, and, frankly, its strategy has yet to produce the 
results promised.
    At the same time, al Qa'ida has attempted to spur an 
ideological awakening among Muslims around the world to fight 
the West. The allure of this ideology continues to draw 
adherents and manifests itself in real threats. Some actually 
argue that al Qa'ida is actually achieving its goal via the 
establishment of a virtual caliphate.
    Thus, I think there is a paradox in which al Qa'ida as an 
organization remains in steady decline but the global terrorist 
threat inspired by this ideology remains a central national 
security concern for the United States.
    This is why I think there has been so much debate, both 
here in Congress and in academic circles, about the nature of 
al Qa'ida. Is it a hierarchical organization, a loose 
confederation of like-minded terrorists or groups, or simply a 
metastasized idea with viral appeal?
    Frankly, I think al Qa'ida is a hybrid of those three, a 
three-headed beast, if you will, comprised of the al Qa'ida 
core, as Mr. Clarke mentioned, the al Qa'ida regional 
affiliates and like-minded groups, and the al Qa'ida-inspired 
radicalization and threats that we face.
    Al Qa'ida core leadership, largely contained in the 
Afghanistan-Pakistan region, has continued to set the strategic 
direction for the movement and has directed attack plotting. At 
the same time, al Qa'ida has aggressively and systematically 
moved to establish, co-opt, and use regional affiliates like al 
Qa'ida in Iraq, al Qa'ida in the Islamic Maghreb, and al Qa'ida 
in the Arabian Peninsula as forward bases for terrorist 
activity and strategic reach.
    Until the Christmas Day attack, these regional groups 
confined their activities largely to their respective regions. 
The most troubling revelation on Christmas was that al Qa'ida 
was trying to hit the United States directly from its outpost 
in Yemen.
    The constellation of terrorist groups that have direct 
ties, associations, or parallel ideological agendas with al 
Qa'ida is constantly shifting. This, I think, has been 
facilitated by the safe haven and training grounds present in 
western Pakistan and in other regions around the world, like 
Somalia, Yemen, and the Maghreb.
    Aside from the direct threat to the United States, there is 
a danger that some subset of these regional organizations or 
groups could evolve into a new global syndicate, even absent AQ 
core involvement. In addition, one of the more sophisticated of 
the like-minded groups, like Lashkar-e-Taiba, called ``LT'' by 
some, could alter its regional focus and become a global leader 
and successor to al Qa'ida, taking up the mantle to defend all 
Muslims. We have seen glimpses of this in the Mumbai attacks 
and with the uncovered plotting against the Danish newspaper 
that published the Muhammad cartoons. The mere existence of 
these groups is dangerous and needs to be viewed as a potential 
next phase in the war on terror.
    In addition, al Qa'ida has identified and nurtured pockets 
of radicalized cells and individuals in western Europe and 
around the world with the capability to carry out deadly 
attacks under al Qa'ida direction under its banner. The long-
term threat from al Qa'ida comes in the allure of its ideology 
to individuals who may decide to commit acts of terror. Through 
its propaganda, bin Laden and al Qa'ida have created a symbolic 
brand that identifies al Qa'ida as a leader of this movement. 
This has been amplified by the radicalization of individuals 
via the Internet and via ideologues. This ideology, as you all 
know, preys on discontent and alienation while providing a 
simple narrative that pretends to grant meaning and a heroic 
outlet for the young.
    As you know, the al Qa'ida narrative is simple: The West is 
at war with Islam. Muslims have a religious obligation to 
engage in Jihad to defend fellow Muslims. The U.S. is the head 
of the snake, the far enemy that must be fought along with 
apostate allies. And al Qa'ida is the ultimate vanguard of this 
movement for all Muslims. To disaffected or troubled 
individuals, this narrative explains in a simple framework the 
ills around them and the geopolitical discord they see on their 
television sets and on the Internet.
    There are some concerning elements to these recent cases of 
radicalization within the U.S. which I think are important to 
note. Unlike in past cases, some of the individuals involved 
appear to be second- or third-generation Americans who were 
born into Islam as opposed to being converts to the faith. They 
appear to have acted in clusters, as with the American Somalis 
and Northern Virginia Five. And they attempted to join or 
succeeded in connecting with a known terrorist organization 
abroad. These factors are troubling, especially given the 
effectiveness of al Qa'ida and extremists like Anwar al-Awlaki 
to use the Internet to draw new adherents, including from the 
West.
    This environment then I think suggests that more 
individuals will be radicalized over time and could take on the 
global terrorist mantle. And the metastasized dimension of the 
terrorist problem is perhaps the most bedeviling since it is 
diffuse, local, or even personal in nature, and hard to 
counter. And I think this ideological battlefield is where the 
long war, the generational battle, will be fought.
    Mr. Chairman, if I could just quickly lay out what I 
think--which is presented in my written testimony--should be 
the U.S. response to al Qa'ida.
    We should pressure al Qa'ida on all fronts, without a 
doubt. It is essential that AQ core be dismantled. The core of 
al Qa'ida is the heart of the global Sunni terrorist movement. 
And though its destruction ultimately will not end terrorism or 
the allure of its ideology, it is a key and important step to 
disabling the global terrorist network.
    The U.S. and the international community has to deny 
physical safe haven to terrorist groups. We need to shift the 
momentum against the Taliban in Afghanistan. We need to enable 
the Pakistanis to continue their fight against the Pakistan 
Taliban and al Qa'ida in the tribal regions. We must continue 
our support to Yemen to root out al Qa'ida elements. Along with 
regional partners, we should help defend the fledgling 
transitional federal government in Somalia. And we must ensure 
that the Iraqi Government is able to solidify security against 
AQI [al Qa'ida in Iraq] and other violent extremist groups.
    We also need an all-out offensive in the ideological 
battle, with a concentration on networking and empowering 
grassroots countermovements against al Qa'ida. Importantly, all 
quarters in Muslim communities are now openly challenging al 
Qa'ida.
    And although the United States is not a central protagonist 
in this battle within Islam, it has a key role to play. Aside 
from promoting democracy, defending our policies and values, 
and demonstrating that the West is not at war with Islam, the 
United States should be actively countering this narrative and 
the violent extremist ideology. The goal should be to help 
foment and network a global grassroots countermovement through 
the credible voices emerging to counter al Qa'ida in both the 
physical and virtual worlds.
    At the end of the day, this opposition must be organic and 
come from within Muslim communities. And I think Muslim 
Americans then have a special responsibility to stand up 
against this ideology.
    We need to continue to build a layered defense against 
strategically significant terrorist attacks. This requires a 
continual renewal of our commitment to intelligence gathering 
and prevention as the primary principles guiding our homeland 
defense. We should redouble our efforts to improve identity 
management, to include integration of biometric-based 
technologies. In addition, we should continue to extend our 
borders with initiatives like the Container Security Initiative 
that should expand the notion of expanding our borders beyond 
our shores.
    And importantly--and this is something my colleagues have 
argued for--we must push government agencies to imagine the 
unimaginable, by continuing to invest resources and energy to 
prevent terrorist groups from developing, acquiring, or using 
weapons of mass destruction [WMD]. This, then, also extends to 
investment of resources and creating resiliency in our critical 
infrastructure, to include our cyber infrastructure.
    Lastly, our efforts to defeat al Qa'ida, I believe, require 
a long-term legal framework to address the 21st-century threat. 
There is still no established consensus about how to hold 
suspect terrorists and insurgents in a seemingly endless global 
conflict in which the theaters of conflict range from 
recognized war zones in ungoverned havens to city centers and 
suburban neighborhoods.
    Whatever form this takes, I think the United States needs 
to establish transparent rules for justifying continued 
detention while protecting basic individual rights, and it will 
need to gain some degree of international legitimacy. I think 
this can only be achieved if the President and Congress commit 
the capital and credibility to establishing such a system that 
can then be defended in the U.S. courts and in the court of 
public opinion.
    Mr. Chairman, al Qa'ida and the movement it represents is 
an enemy that is morphing in structure and adapting to changing 
geopolitical landscapes, but one that retains the same radical 
vision and ideology and devotion to the use of terrorism. We 
must hasten the demise of al Qa'ida while containing the post-
al Qa'ida terrorist threat and the violent ideology that it has 
spawned.
    Thank you very much.
    [The prepared statement of Mr. Zarate can be found in the 
Appendix on page 48.]
    The Chairman. I thank the gentleman.
    Mr. Coll.

   STATEMENT OF STEVE COLL, PRESIDENT, NEW AMERICA FOUNDATION

    Mr. Coll. Thank you, Mr. Chairman and Ranking Member 
McKeon, members of the committee, for this opportunity to 
testify.
    I agree with the previous speakers about virtually 
everything they had to say. I will try to briefly offer a few 
complementary angles of vision.
    I agree also with my predecessor that al Qa'ida presents a 
paradox today. Its political and ideological support in the 
Muslim world has been declining, and yet it remains resilient 
as a source of disruptive terrorist violence.
    And part of the explanation lies in the complexity of what 
we mean by ``al Qa'ida.'' It has evolved to a point where it is 
really several things at once. It is a specific organization 
with 21 years of history in the same emir and deputy emir who 
were appointed at the first meetings in Peshawar in the summer 
of 1988. That organization remains intact, and it manages 
through the same shura committees that it began with. It is 
also a network of like-minded groups, a network that was really 
formally organized in the 1990s. It has evolved and changed 
shape, but it is still around as originally conceived. And al 
Qa'ida is also a movement, an ideology, a brand.
    As a political movement, I think al Qa'ida is failing. 
Multiple polls have described the decline in public support for 
its tactics throughout the Islamic world since about 2005. One 
recent, particularly rigorous poll found that support for al 
Qa'ida-directed attacks against American civilians in the U.S. 
homeland is virtually negligible across a diverse array of 
heavily populated Muslim-majority countries. In Pakistan, for 
example, where anti-American feeling has reached a fever pitch, 
only nine percent supported such attacks against U.S. 
civilians. In Indonesia, the number was about five percent.
    It is common to observe that bin Laden's poll ratings have 
fallen because al Qa'ida-inspired violence has taken so many 
Muslim civilian lives since 2001. But the data actually 
suggests that citizens in Islamic countries, as elsewhere, 
overwhelmingly disapprove of all indiscriminate violence 
against civilians, no matter who carries it out and no matter 
what the cause.
    Despite its growing isolation, however, al Qa'ida remains 
resilient and dangerous, in large part because its central and 
original organization and its leadership remains in the field. 
And I think we should be cautious about declaring that central 
organization disabled.
    My colleague Peter Bergen has documented that one easily 
observed measure of the degree of activity of central al Qa'ida 
is available in its media operations through As-Sahab, the 
number of releases it puts out from year to year. In 2008, 
those operations seem to have come under severe pressure and 
have been reduced, but this year they have bounced back again, 
despite the pressure that U.S. military activity and drone 
attacks have obviously placed on the leadership and the impact 
that has had.
    And this succession of small- to modest-sized plots--many 
of them, fortunately, unsuccessful--have produced a pattern of 
open-source evidence that clearly implicates support from al 
Qa'ida technicians or leaders in Pakistan or elsewhere along 
the border. All of these plots make clear that the group 
retains enough breathing space to launch operations that could, 
as Mr. Clarke pointed out, but for the operation of a single 
detonator, claim hundreds of lives in an instance.
    I think the Flight 253 plot did bring to the floor a 
pattern of evidence about al Qa'ida's specific resilience in 
Yemen that has been accumulating for some time. The group's 
presence and connections there, of course, date back two 
decades. The resilience that presented itself on Christmas is 
probably traceable to the period immediately after Saudi 
Arabia's crackdown on al Qa'ida in 2003, when Yemen started to 
reemerge as a refuge and a regional haven.
    In the Pakistan and Afghanistan region, al Qa'ida's like-
minded allies, I think, are far more robust than they are in 
Yemen. The number of sworn al Qa'ida members operating along 
the Afghan-Pakistan border probably is only a few hundred, but 
the Afghan Taliban's allied fighting forces, though largely 
regional, are not exclusively regional in their focus, and 
number, of course, in the many thousands. And the Pakistani 
Taliban are equally estimated to number in the thousands.
    Perhaps the most potent of these groups in the Pakistan-
Afghan region is Lashkar-e-Taiba, which has been mentioned a 
couple of times before. It is an India-focused group, but along 
with splinters like Jaish-e-Mohammed and Lashkar-e-Jhangvi and 
various cells that spin off from those, they have been able to 
recruit very talented operatives from educated classes and 
urban centers. I think this makes them distinctive in 
comparison to the Afghan Taliban, for example. Lashkar's ranks 
include scores of volunteer doctors and postgraduate 
professionals.
    If one of these sub networks did find the time and space to 
reform and plot an attempt of the Mumbai type, it could create 
far more destructive effects than is typically available to 
these single operators and small groups that al Qa'ida has been 
organizing.
    In my own judgment, I think Mumbai is actually the most 
serious warning in the succession of plots, along with the 2006 
attempted planes bombing conspiracy in Britain, simply because 
of its scale and what it tells you about the geographical space 
and the unmolested time that the Mumbai organizers had to carry 
off a very creative and complicated attack. I think that is a 
risk we should be mindful of, even though it doesn't 
necessarily involve the direct targeting of the U.S. homeland.
    Let me conclude by stepping back from that observation just 
to say that I think, in a strategic or global sense, al Qa'ida 
seems to be in the process of defeating and isolating itself. 
Its political isolation in the Muslim world has set the stage 
for the United States and allied governments, with persistence 
and concentrated effort, to finally destroy central al Qa'ida's 
leadership along the Afghan-Pakistan border.
    That achievement, as the previous speakers have pointed 
out, would not end terrorism or end the problem of radical 
Islamist violence, but it would provide justice for the victims 
of 9/11, and it would also contribute to freedom of maneuver 
for the United States and its allies as they continue this 
generation-long campaign. It would also end the debilitating 
and destabilizing narrative of the hunt and escape that has 
elevated the reputations of bin Laden and his deputy, al-
Zawahiri, for so long.
    Thank you very much.
    [The prepared statement of Mr. Coll can be found in the 
Appendix on page 66.]
    The Chairman. Thank you, Mr. Coll.
    Mr. McKeon.
    Mr. McKeon. I will pass.
    The Chairman. Who is next? Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman, for having this 
hearing.
    And I want to thank our witnesses.
    Gentlemen, I have listened, hopefully very attentively, to 
what each of you have said. What I think I find missing is, you 
know, if you were given a free hand, if you were the Commander 
in Chief and you had a Congress that would cooperate with you 
unflinchingly, what would you do different than we are doing 
right now?
    Mr. Clarke. Congressman, I think implicit in your question 
is that we should be doing something different. And what I am 
trying to say is that you should not, just because there was an 
almost successful attack over Detroit, conclude that we are not 
being successful. I think we are being successful.
    And I think the administration, long before the incident in 
Detroit, the administration focused on the growing threat in 
Yemen and was acting successfully against that threat in Yemen. 
It wasn't getting a lot of press attention, but there was a 
very effective U.S. Government activity for most of last year 
in Yemen. And we were significantly destroying the leadership 
of al Qa'ida in the Arabian Peninsula long before the media 
even learned what ``AQAP'' stood for.
    So don't conclude automatically that we need to do 
something different. And don't conclude that, if we were only 
doing the right things, al Qa'ida will disappear overnight. 
This is the work of a generation. We are well on track to 
eliminating al Qa'ida Central as a significant threat. We have 
greatly improved our homeland security. It will never be 
perfect; don't expect it ever will be. Don't expect we will 
ever be able to stop every attack.
    I think if you were to look at all of the things that the 
administration is doing and other allied governments are doing, 
the area that probably needs the most reinforcement is the 
ideological counterweight that my colleagues have talked about. 
It is really not something the United States Government can do 
overtly. It is best done by Muslim governments.
    And Muslim governments have actually done a very good job. 
Saudi Arabia, Jordan, Egypt, Morocco, the United Arab Emirates 
[UAE], other countries, have really done a very effective job 
of creating an ideological counterweight domestically inside 
their country. That wasn't always the case, but I think it is 
now.
    They are doing it without U.S. involvement, which is great 
because U.S. involvement probably wouldn't help. But there are 
things the United States can do. And if there were one area 
where I would strengthen our efforts, it would be in the 
somewhat fuzzy and hard-to-define area of creating an 
ideological counterweight.
    Mr. Taylor. Sir.
    Mr. Zarate. Congressman, it is a great question. I agree 
with Mr. Clarke, but I think there are three areas where we can 
continue to improve, in particular to deal with the movement.
    And I think Mr. Clarke is right to point out that we 
shouldn't throw the baby out with the bath water, in terms of 
assuming that we have failed because of what happened on 
Christmas Day. I think people have short memories. And I think 
we have, over the last eight years, disrupted numerous plots. 
Mr. Coll mentioned the August 2006 Atlantic airline plot, which 
would have been a devastating attack, which, with help from the 
Pakistani Government and the U.K. Government, we were able to 
disrupt with great effect. And so I would say we have done a 
very good job.
    And, as Mr. Coll indicated as well, al Qa'ida is self-
imploding. The very nature of its exclusionary ideology and its 
violent tactics is not only an inherent part of their DNA in 
terms of what they do and what they want to do as an 
organization, but it is also inherently alienating to the very 
constituencies that they are trying to attract.
    And I think the grand lesson from Iraq with the Al Anbar 
awakening is the fact that the Iraqis themselves, in the heart 
of what is supposed to be al Qa'ida's core constituency, rose 
up physically against al Qa'ida and have largely rejected al 
Qa'ida, which I think to a certain extent was the beginning of 
the end for al Qa'ida, an existential threat.
    But three areas I would suggest some attention: dealing 
with safe havens to avoid these regional groups or militant 
insurgencies from becoming regional problems or even global 
platforms. That entails not just dealing with the current 
problems like Yemen, Somalia, Pakistan, Afghanistan, but 
looking beyond the horizon to potential problems in places like 
Bangladesh, northern Nigeria, and other parts where there is 
already sectarian tension, where there are forces of 
radicalization trying to act like leeches to exacerbate those 
conflicts, and where you have the potential for al Qa'ida to 
really make hay in places like that. So I think we need to be 
forward-looking.
    Countering the narrative is huge. And I think the U.S. does 
have a role to play in terms of working with the private 
sector, with credible voices. Groups like the Quilliam 
Foundation in London, ex-extremists who have come out now 
fighting against their former mates, who are literally 
organizing against radicalization. These are the kinds of 
groups we need to support, network without tainting.
    And then, finally, the legal framework. I think we need to 
end what has largely become a political football with respect 
to how we treat this problem for the long term. Because it is a 
long-term problem. This isn't just a problem of Guantanamo; it 
is a problem with the legal framework long-term. And we need to 
resolve that.
    Mr. Taylor. Thank you, Mr. Chairman.
    I thank the gentlemen.
    The Chairman. I thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Perhaps because I am a scientist, but I think that numbers 
really do have significance. In a recent briefing before this 
committee, I asked the four experts their estimate of how many 
radical Islamists they thought there were in the world that 
disliked us and would hurt us if they could. Two of them said, 
order of magnitude 10,000; a third one said 100,000; and the 
fourth one said, in terms of our ability to count them, 
essentially an infinite number.
    We have about a bit less than 200 in Guantanamo Bay, with a 
20 percent recidivism rate. That would mean that if those 20 
percent return to the battlefield, that would increase the 
number from 10,000, 100,000, or essentially an infinite number 
to a number that really is lost in our estimate.
    But I know we are not dealing with a practical reality 
world here; we are dealing very largely with emotion and 
political issues. And so I know that the importance of these 40 
is hugely more than the infinitesimal number that they would 
add to the international radical Islamists who hate us, would 
wish us ill and would hurt us if they could.
    I was impressed with a statement that Admiral Olson made 
before this committee: ``Special operation forces must focus on 
the environmental dynamics and root causes that create today's 
and tomorrow's threats and adversaries. Furthermore, a solution 
is often as diverse as the threat and requires an approach that 
is integrated with the long-term work of civilian agencies, 
especially the State Department and USAID [United States Agency 
for International Development], to foster U.S. credibility and 
influence among relevant populations.''
    In this committee, we focus primarily on military. In terms 
of a percentage of the effective weapons that we have to fight 
against these international threats, how large do you think the 
military is as compared with the others which Admiral Olson 
mentioned before this committee?
    Mr. Clarke. Congressman, I think, obviously, in 
Afghanistan, the United States military is our principal weapon 
in fighting against the Taliban. If you can put Afghanistan 
aside--and that is asking a lot--but if you consider the rest 
of the world where the threats exist, I think the military is a 
valuable tool, probably of equal importance with the FBI 
[Federal Bureau of Investigations] and law enforcement 
cooperation, probably of equal importance with the State 
Department and AID, but I don't think it is primarily a 
military issue.
    And I think the dialogue that has occurred over the last 10 
years, at least, about whether it is a military issue or a law 
enforcement issue misses the point. It is not a military or a 
political issue or a sociological issue. It is all of the 
above. And the only way for us to combat it effectively is to 
use all the weapons available to the United States. And, 
certainly, some of our military is a valuable weapon on some 
occasions in some environments. But it is not an either/or 
situation. Law enforcement plays a very, very critical role, as 
does intelligence. And, as you suggest, going after the root 
causes is also valuable in some countries.
    So we need to tailor our response depending upon where we 
are operating, and we need to use everything we've got.
    Mr. Zarate. Congressman, I am a huge fan of Admiral Olson 
and the special operations community. And I think, as we look 
forward to the nature of asymmetric warfare, we are going to be 
relying more and more on special forces in environments of 
concern and interest, both in preparation of the battlefield 
and in trying to determine what national resources we can bring 
to bear.
    I would just say we need to remember some important lessons 
over the last eight years where we have been successful. If you 
look at southeast Asia, where all of the experts in 2001 and 
2002 were expecting the second front in the War on Terror to 
emerge, given al Qa'ida's presence there, their deep ties to 
local groups like Jemaah Islamiyah and Abu Sayyaf Group, there 
has been incredible success, I think, in not only disrupting 
those networks but disrupting their regional and global reach. 
And part of that has been the work of the special ops 
community; part of it has been the work of locals. And I think 
that is a good formula to look at in the future.
    Mr. Bartlett. Thank you.
    The Chairman. I thank the gentleman.
    Mr. Clarke, let me ask you, what would victory against al 
Qa'ida look like?
    Mr. Clarke. Mr. Chairman, I think if we look out maybe 20 
years from now, if we are lucky, and there isn't an al Qa'ida, 
there isn't a structured organization known as al Qa'ida, and, 
more importantly, if the violent Islamic ideology represented 
by al Qa'ida is significantly on the wane, then I think we 
would be able to declare victory.
    The ideology is never going to go away. It has been around 
for a thousand years. It comes and goes. There are waves in 
Islamic history of this sort of deviant, distorted strain of 
Islam, just as there were in Christianity for hundreds of 
years. So I think it is always going to be there. But if we can 
make it a small minority view in the Islamic world and if we 
can eliminate the structured organization, then I think we can 
declare a success.
    But we will never be in a situation where there are no 
violent Islamic cells anywhere in the world. For us, we need to 
determine success in part by eliminating organizations that 
threaten the United States, that see as their primary purpose 
going after what they call the ``far enemy.'' Those are the 
ones that should be our highest priority.
    The Chairman. How do you get at the Islamists who will 
always have a violent streak in them?
    Mr. Clarke. Well, I think what has proven so effective so 
far is to have respected imams in the community explain in the 
mosque on Fridays why the things that are being said by al 
Qa'ida are lies, why they are distortions, to do that at the 
community level throughout the Muslim world. That is being done 
in a lot of countries, and it is being done quietly but, I 
think, very effectively.
    We now also, however, need to bring that message into the 
Internet and into the cyberspace. Because we have seen all too 
often that individuals have been recruited remotely. People who 
have never been to an al Qa'ida meeting, never been to a rally, 
never been to anyplace where a group assembled were nonetheless 
converted.
    And this is very frightening. It is very frightening to our 
Muslim friends that really well-done Internet appeals have 
touched a responsive chord in many Muslim youth. And then, 
having been converted on the Internet, they then go out and try 
to find organizations, try to find a way of affiliating and 
actually plugging in to al Qa'ida.
    We do not yet, as far as I know, have in any country an 
effective cyberspace presence of the ideological effort that is 
the counterweight to al Qa'ida.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman, and thank you for 
holding this excellent hearing.
    I applaud all three of you. You know, our etiquette here is 
that two witnesses are chosen by the majority and one by the 
minority, and it is always a good sign when we can't tell which 
is which. And I applaud you for your analysis and your 
thoughtful efforts to try to help your country.
    I am reminded of Mr. Jim Saxton, former Member, who also 
worked very hard in a nonpartisan manner, and he pushed for a 
panel that was established on terrorism. We had a meeting in 
July of 2000, and this is what he said in his opening 
statement: ``As a further example, the relatively new terrorist 
group, al Qa'ida, headed by Usama bin Laden, may foreshadow a 
new trend toward relatively self-sufficient terrorist 
organizations that sustain themselves and operate independently 
of a state sponsor.'' That was a year and a half before the 
2001 attacks. We are now a decade later, and I appreciate your 
ongoing efforts here.
    The second point I wanted to make was, I think you, Mr. 
Coll, talked about we need to not make any provocative mistakes 
or acts. And I think a couple of you referred to the Abu Ghraib 
experience and the photographs. At that time, I had a couple of 
Egyptian interns that were with me for a couple of weeks. And 
one of them was a young woman who liked America a lot, liked 
Americans, excellent English language skills. And I asked her 
what she thought about those photographs that came out when 
they were first released. She was very polite, she said, ``I 
wasn't there. I don't know what happened. It may be able to be 
explained.'' She said, ``But when I saw those photographs, I 
felt like it was me on the floor of that prison cell.'' And 
here, this was a young woman in America, likes America. So you 
put yourself in the position of somebody who may not be very 
pro-American and a young male, you can understand your 
admonition, Mr. Coll, to avoid mistakes and provocative acts.
    Mr. Zarate, I think you, in your statement, more completely 
than the other two witnesses, talk about some of these other 
areas around the world and make some, I think, very good 
suggestions. You specifically mention Algeria and Morocco. And 
it gives me a chance to say something about the good work that 
Ambassador Christopher Ross is doing to try to resolve the 
issues between the Polisario in Morocco, because until that 
conflict gets resolved, it is going to be very, very difficult 
for Morocco and Algeria to come together and that region to get 
settled.
    And, of course, our attention doesn't get on these 
intractable conflicts that have been going on for several 
decades. But I think your statement today as to why we need not 
ignore these conflicts that, unfortunately, we sometimes get 
used to when, in fact, the people in the area very much want to 
resolve them and we need to help them. And I, again, applaud 
Chris Ross' efforts.
    The question I wanted to ask is--and maybe I will use 
Flight 253 for the question. What is that group trying to 
accomplish? I think you, Mr. Coll, said it has very little 
strategic significance. Have their goals changed? What are they 
trying to accomplish?
    What we have said in the past is the goal of al Qa'ida is 
to get the United States to remove its troops from Muslim lands 
and stop supporting Israel. I would like to hear from the three 
of you briefly, what do you think the goal was with that attack 
and other attacks at this stage?
    Mr. Coll. Well, I think al Qa'ida leaders explained their 
reasoning repeatedly, and they want to hold the United States 
directly to account for what they regard as its aggressive 
policies in the Muslim world. Bin Laden always uses the phrase 
``raid'' to describe what we would correctly see as mass 
murder, but he sees it in this, sort of, narrative of both 
political and millenarian violence that he imagines himself 
leading.
    The group in Yemen is a little bit more muted about their 
own particular ideology. But when you read into the preachers 
around what we understand to be the group that recruited and 
equipped the Flight 253 attacker, it is the same narrative of 
direct violence against the United States that is associated 
both with political but also millenarian narratives.
    Mr. Zarate. Congressman, in terms of the actual attack, 
this is the manifestation of al Qa'ida's strategy to try to use 
the regional outpost. And the outpost in Yemen is the most 
dangerous because you have seasoned al Qa'ida members, long 
ties to bin Laden and the core group, directing their attention 
to the West.
    This has been the intention of al Qa'ida for some time, but 
they pressed this in 2005, 2006. And, if you recall, the 
Zawahiri-Zarqawi letter from 2005 that laid this strategy out 
in the context of al Qa'ida in Iraq. But that is precisely what 
they have been trying to do in the Maghreb and in Yemen. And, 
unfortunately, this is a manifestation of that very strategy.
    But I would say, in terms of long term, what al Qa'ida has 
in mind is long-term conflict with the U.S. They have in mind 
the notion of bankrupting us, bleeding us of blood and 
treasure, thinking of the model of the Soviets in Afghanistan. 
And I think that is really driving bin Laden and al Qa'ida's 
thinking these days. And any kind of attack that disrupts us, 
that forces us to, you know, fight amongst ourselves and to 
spend resources is a victory for them, in their minds.
    Mr. Coll. If I could just add very briefly, I do think they 
want us to overreact. They have talked about that a fair 
amount, and that is part of the way they get us toward this 
strategy of what they imagine are leading us to bankruptcy.
    Mr. Clarke. Sir, I think their ultimate goal, as they have 
declared it, is to replace the governments in the Islamic 
countries, to overthrow the Government of Saudi Arabia, 
overthrow the Government of Egypt. That is their ultimate goal. 
And they seek to get us out of the region by increasing the 
pain upon us, because they believe we are propping up those 
governments.
    What is interesting is that their long-term goal, 
overthrowing the Government of Saudi Arabia and Egypt, 
replacing those governments with al Qa'ida governments, is as 
far away from ever happening as it could possibly be. The 
chances of them ever achieving their ultimate goal are close to 
zero.
    Dr. Snyder. Thank you all for your work.
    The Chairman. I thank the gentleman.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Gentlemen, given the high recidivism rates that we have 
observed, is transferring detainees to other countries an 
acceptable risk when they can easily return to al Qa'ida's 
ranks, either because of a lack of effective monitoring or 
because of inadequate legal and prison systems?
    Mr. Zarate. Congressman, I think it is something we have to 
be worried about, and worried about even more so with the 
present population of Guantanamo, which represents a more 
hardened group of terrorists and folk connected to al Qa'ida. 
We have seen in the past the numbers vary from, you know, 
anywhere from 7 percent to 20 percent. But I think recidivism 
rates would likely go much higher if some of these individuals 
are released without the proper security constraints on the 
back end.
    And I think that is critical. We have got to be sure if we 
are transferring individuals. The Bush administration did so, 
as I was a part of, over 530 such individuals transferred out 
of Guantanamo. You have got to be sure that you have the right 
security measures on the back end. And, unfortunately, what we 
have seen in the past is those security measures aren't 
foolproof, and we have seen members return to the battlefield. 
So we have to be very cautious about this.
    Mr. Coll. If I could just add, I think it is important to 
manage these risks with eyes on the strategic context.
    There have been two administrations, on a bipartisan basis, 
that have come to the view that the provocation that Guantanamo 
represents outstrips the benefits of its specific location as a 
detention center. President Bush announced his desire to close 
the facility for that reason, and President Obama has followed.
    Both Presidents and their staffs have wrestled with the 
extraordinary complexity of the case files and the risks 
associated with those case files. But I do think it is 
important to understand that the strategic goal here is to 
create a context in which al Qa'ida continues to isolate itself 
in the Muslim world. Guantanamo is a factor in the provocative 
narrative that al Qa'ida has sought to exploit.
    Mr. Clarke. Congressman, I think there are two separate 
issues here. One is, should we be releasing these people at all 
and, if so, with what criteria; and, two, if we keep them, 
where do we keep them. I think they are very separate issues.
    And, obviously, I think the first question answers itself, 
as Juan suggested, we have been releasing them for several 
years now. We have learned something in the process. I think 
some of the initial prisoners that were released in the Bush 
administration turned out they shouldn't have been released. I 
think we have learned that there are countries, such as Yemen, 
that probably can't handle it right now, and, therefore, we 
have to be very careful. But there have been other cases that 
have been quite successful. So it has been, in both of the last 
two administrations, something that was considered on a case-
by-case basis. I think we have to continue to do that, learning 
from our past mistakes.
    The second issue of, if we are going to keep some number of 
them, is it important that they be kept in Cuba. I have never 
understood the logic that says there is some value of having 
them in Cuba as opposed to someplace else. I do think that 
having them in Cuba has become a tool that the al Qa'ida 
propaganda machine uses against us. Is it going to solve the 
world's problems to take that one talking point away from al 
Qa'ida? No, it is not. But I don't see why we should continue 
to hand them a propaganda point by continuing to keep 
Guantanamo open. I think moving them to someplace else would 
probably have some minor value that is probably worth doing.
    Mr. McKeon. I think, you know, there have been references 
to the past administration, this administration. I am not 
trying to make this a political issue at all. To me, it is just 
a rational issue or a economic issue. Because when we had 
briefings here before the holidays, in three briefings we were 
told how much it was going to cost to move the detainees to 
Illinois and to New York, and we were talking over a half-
billion dollars. Given our economic situation, it is hard for 
me to see how that could possibly be justified.
    But back to the point of where we transfer them, if they 
are going to be transferred, is it unreasonable to require that 
a receiving country not be a state sponsor of terrorism, that 
it be able to secure and exercise control over its territory, 
such that terrorist groups do not enjoy a safe haven and that 
confirmed cases of Guantanamo detainees released to its 
custodies are being returned to terrorism? That is my concern.
    Mr. Clarke. Well, sir, I think we need to develop criteria. 
And I think probably both the last two administrations had 
criteria; we need to keep adjusting them.
    As to whether or not the country receiving them is on the 
state sponsor list or not, there are probably some countries on 
the state sponsor list that would probably be pretty good 
places to send them. I think certainly the Government of Syria, 
which has been on the state-sponsored list, the Government of 
Syria is about as opposed to al Qa'ida as we are and has proven 
that over and over again. They are unlikely to release al 
Qa'ida people.
    But, the other criteria you have mentioned, whether or not 
they are able to hold them, would suggest that places like 
Yemen, which is not on the state sponsor list, probably 
shouldn't be receiving them right now.
    Mr. Zarate. Congressman, I think we need to learn lessons 
and adjust our criteria accordingly. I think we have learned 
some lessons from those we have already released. And I think 
the criteria needs to take into account the shifting 
international security context. I think the Obama 
administration was wise to withhold transferring further 
Yemenis, given the situation in that country. So I think that 
is very important.
    If I could just mention very quickly on the Guantanamo 
question again, I think the underlying issue with Guantanamo, 
for which it is a symbol, is the question of how we hold 
individuals in this long-term battle. And if we are going to 
have a preventive detention model, in many ways the locale, the 
venue doesn't matter. The issue is whether or not we can 
legitimately defend the system by which we hold such 
individuals, especially if they are not going to be held to 
account in a recognizable court of law.
    And so I think one of the things this administration really 
needs to grapple with, and it is part of my testimony, is how 
do you frame that legal framework and how do you defend it. And 
part of that defense may be going back and looking at the 
fact--and I have heard this from my friends at Amnesty 
International--that Guantanamo is actually a fairly good place 
to be held as a detainee, with the facilities that have been 
built, with Attorney General Holder going down and saying it is 
a prison that is being well run.
    And so this may be a time to reflect on whether or not we 
defend the very notion of Guantanamo as part of a preventive 
detention model that we have to defend for the long term.
    Mr. McKeon. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, let me start out by saying--and I am hearing 
just a little bit of a thread here in most of the testimony 
that talks about taking away talking points from al Qa'ida.
    And I think, Mr. Clarke, in your written testimony, your 
six points said that completing the withdrawal of U.S. combat 
forces from Iraq is an important component on the ideological 
front. And I understand that. I just would remind all of us, in 
2001, there were no U.S. combat forces in Iraq or Afghanistan. 
There was no Gitmo. And yet the U.S. was brutally and viciously 
attacked by al Qa'ida Central, I believe as you referred to it.
    And it occurs to me that one of the reasons that we are 
having this discussion about al Qa'ida is not because they are 
so powerful; it is because they have demonstrated an intensity 
of ideology that overwhelms us just by their commitment to do 
us harm. And it occurs to me that there are two primary 
components to the threat that they compose. Number one is that 
intent, and number two would be their capacity to carry it out. 
And I feel like this notion that we better take away their 
talking points is kind of dangerous because it belies what we 
already know about their intractable intent.
    So let me start there, but my question is that we have to 
focus on this thing called capacity. And nothing, of course, I 
don't think, concerns any of us more than al Qa'ida or groups 
with that mindset gaining access to weapons of mass 
destruction, especially nuclear-yield weapons.
    So what can we do today--and I am hoping the entire panel 
will discuss this. I understand we are not in a closed session, 
so you will have to adjust accordingly. But what can we do 
today to prevent the proliferation of WMD in places like 
Pakistan, Iran, and North Korea to eliminate the possibility of 
a nuclear-armed al Qa'ida?
    I just am so convinced that that wipes all other issues off 
the table if terrorists gain access to even one nuclear weapon, 
because then the response of the free world that follows, 
everything is a completely new world.
    So what are we doing to focus on preventing the capacity of 
al Qa'ida to do us harm, especially them gaining access to 
nuclear capability?
    And I will start with you, Mr. Coll.
    Mr. Coll. I think the single most important goal in that 
respect ought to be to create conditions in which Pakistan 
stabilizes and is able and increasingly is willing to take the 
steps necessary to eliminate extremist ideology from Pakistani 
soil and to stop using extremist groups as a proxy for 
Pakistani regional foreign policy goals.
    And in order to create conditions for Pakistan to stabilize 
in that way, it is going to be necessary, at least in the 
medium run, to create conditions for normalization between 
India and Pakistan so that they don't embark on a nuclear arms 
race that only exacerbates the dangers to the entire world of a 
nuclear arsenal in Pakistan that is vulnerable to an insider 
threat over time.
    Mr. Franks. Mr. Zarate.
    Mr. Zarate. Congressman, on your first point, I couldn't 
agree more. I think we have to be careful not to give al Qa'ida 
hecklers veto over our policies, because I think they do have a 
centuries-long view of their grievances that shift with the 
political winds. And I think we see that time and again with 
the statements coming out of bin Laden and al Qa'ida, now 
focused on our support for Israel; in the past, our military 
presence in other conflicts. And so, if it is not one excuse, 
it is going to be another, and I think we need to be careful. 
Although, we shouldn't be handing them free gifts, from a 
propaganda perspective.
    On the WMD front, I am actually quite proud of the work we 
did on this. I think we laid out a very powerful six-part 
strategy. It is laid out in the 2006 national strategy for 
combatting terrorism.
    But two quick points. I agree with Mr. Coll that, on the 
nuclear front, the center of gravity is Pakistan, where we have 
seen Pakistani scientists in the past associated in helping al 
Qa'ida. And I think we have to be very careful with the 
dimensions of capacity and expertise that al Qa'ida could gain 
from the Pakistani nuclear complex.
    On the bio side, I think we have to worry very diligently 
about the expansion of biolabs around the world, in some places 
in ungoverned or undergoverned parts of the world. That is 
dangerous as we look at, potentially, toxins and pathogens used 
by terrorist groups.
    Mr. Clarke. Congressman, the WMD issue is the classic low-
probability, high-impact analytical problem. And it raises the 
question, as all of those kinds of problems do, how do you 
spend your dollar, how do you spend your time? Because you 
could spend the whole gross national product dealing with this 
issue.
    The place that I think deserves more attention on the 
nuclear issue, putting aside biological and chemical, on the 
nuclear issue the place that I think deserves more attention is 
not the security of weapons, because that has attention, but 
the security of nuclear material. There are hundreds of tons of 
enriched uranium around the world that are not properly 
audited, accounted for, and secured. We haven't done a good job 
on that issue, and that is where I would put that attention.
    Mr. Franks. Thank you. I would agree with that.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Three quick points and then one question.
    First of all, definitely, I want to thank Mr. Zarate and 
Mr. Clarke for making a couple points that I think are very 
critical that we ought to move past. I mean, first of all, Mr. 
Clarke's point about the choice between this being a law 
enforcement issue and a military issue. It is no choice at all; 
it is both, and a lot of other things in between. And we 
shouldn't waste too much time debating that. We should debate 
how do to each piece of it best and making sure that we don't 
miss any of them.
    And then, also, both of you made the point, on the issue of 
the detainee policy, we have been, you know, obsessed with 
where we hold them, when, in fact, I think the larger and more 
difficult issues is how do we hold them and who do we hold and 
who don't we hold and what are the criteria. And we have the 
issue of the people who we are not going to try in any court 
but we have to hold. How do we justify that policy and defend 
it? And I think that should be the focus of that debate. And I 
hope, from your mouths to God's ears, if you will, that 
hopefully we will continue to move in that direction.
    And then on the propaganda point, I agree with Mr. Franks 
that we should not be at all concerned with how al Qa'ida is 
going to react to whether or not Guantanamo is open, where we 
try people, what our policies are in Afghanistan. There are, 
however, other voices in the Muslim world that we better pay 
attention to. Jordan, you know, a strong ally, our policies 
will impact their ability to continue to have their citizens 
agree with us. Yemen, Pakistan, Afghanistan--many places look 
at our policies, whether it is Abu Ghraib, Guantanamo, what 
goes on in Afghanistan, the Israeli-Palestinian conflict. And 
these are allies that we should care about, and I hope we don't 
forget about that point.
    My question has to do with the Taliban and al Qa'ida and 
how close they are. There are many different, you know, 
varieties of the Taliban in Afghanistan and Pakistan. It seems 
to me critical to success there would be separating them off 
from al Qa'ida. We are not going to eliminate the Taliban in 
Afghanistan or in Pakistan.
    What do you think about the relationship right now between 
the Taliban and al Qa'ida in both Afghanistan and Pakistan? I 
understand that we are talking about a complex set of groups 
here, but what can we do to separate them so that if the 
Taliban has some degree of influence anywhere that doesn't 
automatically mean that al Qa'ida does? Is that have even 
possible?
    Mr. Coll, if you will.
    Mr. Coll. I think the relationship that is probably closest 
between al Qa'ida and the Pakistani Taliban, particularly the 
Mehsud nexus of the Pakistani Taliban. There are also long 
historical ties that must be continuing between the Haqqani 
network, which is sort of a semi-independent element of the 
Afghan Taliban in al Qa'ida.
    In a strategic sense, al Qa'ida is clearly enabling both 
Taliban by distributing insight into tactics, bomb-making, and 
media operations. Think of just the oxymoron of the phrase 
``Taliban media operations.'' In the 1990s, that basically 
involved covering up oil paintings in Kabul ministries, and 
today they are putting out many more videos than even al Qa'ida 
is. So al Qa'ida clearly has an effect on these groups.
    How to separate them, ultimately it requires a strategy 
that persuades many Taliban leaders that their interests are 
regional and local and political, that they are territorial, 
and that our ----
    Mr. Smith. How are we doing on that front, and what can we 
be doing better?
    Mr. Coll. I think we are just beginning to construct a 
strategy in Afghanistan, and we are way behind in building a 
partnership with the Pakistani Government that would lead to an 
effective approach to their western frontier and domestic 
insurgency.
    Mr. Zarate. I would agree with Mr. Coll's assessment. But I 
would say that, in terms of Pakistan, the Pakistani Government 
has to have a different view for the long-term commitment they 
have to the tribal areas. We saw, for example, in 2006, the 
peace deal with the tribes in North Waziristan and South 
Waziristan which eliminated the pressure that al Qa'ida was 
under at the time and the incentives that the tribes actually 
had then to work with the central government in Pakistan. There 
was a withdrawal of forces, a withdrawal of checks of 
enforcement of that deal. And I think that is what gave al 
Qa'ida some breathing space at the time and some other 
terrorist groups some breathing space in western Pakistan.
    We are now, as we see with Secretary Gates going to 
Islamabad, pushing the Pakistanis to make their way back into 
North Waziristan, which I think is the next important battle 
space. And I think part of this is physical pressure; part of 
it is negotiation with purse and other goodies that the tribals 
like, including influence; and I think part of this is a 
political solution on the other side of the border in Kabul.
    Mr. Clarke. I would agree with all of that. But I think, in 
answer to your question, what should we be doing, I think 
General McChrystal probably is doing it on the Afghan side. And 
that is to say that he understands the Taliban on the Afghan 
side are not monolithic and bits of them can be broken off 
through a combination of coercion and bribery, to be blunt 
about it.
    Mr. Smith. Thank you very much, gentlemen.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    And thank you all for testifying today and for your service 
to our country in varying capacities.
    It seems that we have a real concern with failed states who 
are in governable areas that have a population of Sunni Muslims 
and some of them having a view of life that is susceptible to 
al Qa'ida. How do we deal with that effectively? Because it 
seems to be that perhaps in Afghanistan we haven't dealt with 
it. And some of you have said that it has kind of bled this 
country dry.
    But how do we--we have not simply Afghanistan, but we 
have--and there are ungovernable areas of Pakistan, we have 
Somalia as a failed state, and we have problems with Yemen in 
some ungovernable areas there that have al Qa'ida elements now.
    I mean, how can we best protect our national security 
interests in those areas and not bleed this country 
financially?
    Yes?
    Mr. Zarate. I think you have hit the nail on the head 
because I think we can't be all things to all people and we 
can't have boots on the ground, for both the symbolic reasons 
that we have talked about here but also for resource reasons.
    I think we need to devise strategies like we did in 
southeast Asia, where you have the local authorities, with 
capacity-building, taking on the fight themselves, both the 
hard edges of the fight and the soft edges. And you look at 
things that the Indonesians have done, the Malaysians, with 
Australian help, with U.S. help, that has been incredibly 
effective.
    If you look at Yemen, I think there is a much greater role 
for Saudi Arabia and the UAE [United Arab Emirates] and Gulf 
states that have in their interest not to have an al Qa'ida 
safe haven in their backyard. I think there is a greater role 
there. In the Maghreb, having Algeria and Morocco work more 
closely together, that is something we tried to achieve over 
many years. That is critical.
    So I think the regional partners have to take the leading 
role, with the U.S. and other capable western countries 
providing support and capacity. That is the only way you are 
going to contain these problems and then start to deal with 
them in the long term, which involves development aid, 
assistance, economic investment, all of which we can't do on 
our own and all of which the local authorities and countries 
and interested parties, whether they are tribal or otherwise, 
have the most primary interest in affecting.
    Mr. Coffman. Anyone else?
    Mr. Clarke. I think that is right. I think we can do a lot 
with a small footprint. I think we are demonstrating that now 
in Yemen. We have tried in Somalia. Somalia is a difficult 
problem. But I think there are ways to extend central 
government into some of these ungoverned regions through a 
combination of development aid and security aid. And we can use 
U.S. special operations forces and others in small numbers to 
help achieve that. I think it is a big mistake to think that we 
only can help these people by putting in a large American aid 
footprint or a large American military footprint. In fact, that 
is probably counterproductive.
    What is interesting is, in places like Yemen, it is not so 
much a problem that there isn't enough money to do the 
development aid. There is plenty of money pledged by the 
Saudis, the United States, the UAE, and others. The problem has 
been institution building in the central government so that it 
can use the money that has been pledged. And that is something 
where we ought to be able to do a better job.
    Mr. Coffman. Mr. Coll?
    Mr. Coll. I think all of those approaches that Mr. Clarke 
and Mr. Zarate have outlined are necessary. I think it is 
important, though, to look at the record of where success has 
really been achieved and taken hold.
    And southeast Asia, I think, is the best example. I 
traveled in Indonesia this summer, and I was struck by the 
extent to which the capacity building and the extraordinary 
success of the Government of Indonesia, the Government of 
Malaysia, even the Government of Philippines to a degree has 
had, is a product of regional economic integration. I mean, 
these are middle-income countries that are moving ahead in such 
a confident way that they are able to muster a national 
capacity to defeat insurgent groups and to control ungoverned 
spaces in a way that just wasn't imaginable 20 years ago.
    So, ultimately, in the Arab world and in Africa, that kind 
of momentum, as distant as it looks in a place like Somalia or 
Yemen, is essential. American USAID or boots on the ground is 
no substitute for national capacity that is built from regional 
economic momentum.
    Mr. Coffman. Let me be specific and say Somalia, I mean, 
where we really are talking about a failed state that has no 
capacity at this time, we have issues of piracy in terms of, 
you know, pirates having safe harbor there because it is a 
failed state. We have issues, certainly, of al Qa'ida having a 
presence there. How do you deal with the situation where there 
is no capacity?
    Mr. Zarate. Somalia is perhaps the most bedeviling of the 
safe haven problems, for all the reasons I think most folks 
know well. I think part of it is doing precisely what we have 
tried to do, which is to come up with a political solution 
where fractious parties within Somalia have a vested interest 
in building the power of a central government or some semblance 
of a central government.
    We are getting there, I think, with the Djibouti process 
that has been supported by the U.S. and other partners. Part of 
it is having the AU [African Union] and regional countries like 
Kenya and Ethiopia, which are not well liked in some instances, 
for obvious reasons, take greater ownership and, frankly, help 
contain the problem while the political process develops and 
where you have the capacity.
    But that is a fractious society, a violent society, and one 
where al Qa'ida has found allies like al Shabaab for some time.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Taylor. [Presiding.] The Chair recognizes the 
gentlewoman from California, Mrs. Davis, for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here today.
    As you know, we are about to start the discussions for the 
defense budget for 2011. And I am wondering how you would 
prioritize our defense spending in relation to al Qa'ida. Or 
should we be looking away from more conventional forces? How do 
we balance the threats that al Qa'ida poses as we look to those 
issues?
    Mr. Clarke. Well, again, putting aside Afghanistan, which 
is where we are directly using our military to confront al 
Qa'ida and its affiliates like the Taliban, putting aside that, 
which I think needs to be fully and adequately funded, both on 
the defense side and on the foreign ops side, probably at least 
as important on the foreign ops side, I think we need to look 
at whether or not the Special Forces Command is adequately 
sized. It has been very strained over the last few years 
because of, first, its successes in Iraq and now being used 
extensively in Afghanistan, perhaps in Yemen and elsewhere. 
That is probably the place where, on the military budget, the 
greatest contribution can be made.
    Mr. Zarate. I would agree with that. I think we need to 
look to see where we have resources that apply to the 
asymmetric threat. And I think SOCOM [Special Operations 
Command] is one example where we have programs that can be 
applied.
    I think programs that allow us to build capacity with 
foreign counterparts--I know the special operations community 
has built a very important and good global and network of 
special operation forces around the world, including with some 
Arab allies. And so, building that capacity to deal with 
problems as we have seen in Yemen or in Somalia or in the 
Maghreb becomes very important so that we don't have to put 
boots on the ground and we have good and capable allies that 
are willing and able to do it. So I think that is important.
    And, finally, I know this may be outside the purview of 
this committee, but finding a way, perhaps through 1206 
funding, to blend the funding that goes to State and DOD [the 
Department of Defense] for these longer-term development aid 
and assistance programs in environments where you have 
incipient conflicts that need both a security component and a 
development aid and assistance component. I think that is 
critical. And I don't think, as a bureaucracy, we have really 
figured that out as a U.S. Government. And we have struggled 
with it. I am sure Dick did in his time in the White House. I 
did, as well.
    Mr. Coll. My colleagues know the programmatic pieces much 
better than I, but I would step back and just make two quick 
observations.
    First, to reenforce the notion of SOCOM's enabling 
capacity. When you look out over 20 years, one hopes that the 
stress that special forces have been under in Iraq and 
Afghanistan will ebb, but the challenge of enabling regional 
and local capacity will persist.
    And, secondly, if--I would scrutinize the strategic 
communications efforts of the Defense Department in this 
budgeting cycle, because I do think there is an opportunity and 
a need to reset, on a nonpartisan, serious basis, American 
thinking about strategic communication and where the dollars 
are going and whether they are effective and how to leverage 
them successfully. This, again, is a 20-year challenge that is 
not going to go away, and it would be a good time to start 
thinking about how to spend effectively to support that goal.
    Mrs. Davis. Thank you. I appreciate that.
    I think that one of the lessons that we have learned in the 
last number of years is how to be more efficient, in some ways, 
across agencies. But I also am wondering if you could, you 
know, maybe just point out where are we the most inefficient in 
trying to work better together to preserve our security in a 
way that doesn't bankrupt us, bleed us the way that we are 
seeing today.
    Mr. Clarke. Where are we most inefficient? I would have to 
say, if you look across in terms of the budget where are we 
spending money probably least effectively, it is probably in 
AID, in the foreign ops budget because they tend to go after 
very large projects, which take a long time and aren't 
immediately seen by the people in the recipient countries, 
necessarily, as beneficial.
    To the extent that AID has moved in the direction, which it 
has, of smaller projects that deliver quick hits, quick 
victories, the way the DOD money has done so well, I think that 
is probably the place where we could be more efficient.
    Mr. Zarate. I couldn't agree more. I think one of the 
challenges for the U.S. Government is aligning our development 
aid and assistance long-term with our short-term national 
security needs without doing damage to those long-term goals. 
So we haven't figured that out yet. And I think Dick is 
absolutely right, in terms of the lack of efficiencies.
    I would, for example, echo what Mr. Coll said in terms of 
strategic communications. I think that was something that we 
left unfinished in the prior administration, figuring out both 
bureaucratically and programmatically how you deal with this 
new war, this asymmetric, Internet-based war in terms of 
STRATCOM [Strategic Communications] strategy and structure. So 
that is important.
    Finally, I would just say, Congresswoman, I think we, as a 
government, need to start thinking more creatively about how we 
engage, align, and work with private-sector actors. I think we 
don't do it well enough. And what you have facing us is an 
enemy made up of non-state actors, cells, networks. What we 
haven't figured out is how to align those good guys on the good 
side of the ledger to work against those very networks at the 
local level. And I don't think we are very good at that yet.
    Mrs. Davis. Thank you.
    Mr. Taylor. Before the Chair recognizes the gentleman from 
Pennsylvania, we have been called for two votes, one 15-minute, 
one 5-minute. It is Chairman Skelton's intention to recognize 
Mr. Shuster, then break for the votes and come back.
    The Chair now recognizes the gentleman from Pennsylvania 
for five minutes.
    Mr. Shuster. Thank you, Mr. Chairman. I appreciate that.
    Is it Mr. Zarate?
    Mr. Zarate. Zarate.
    Mr. Shuster. My Spanish is a little off.
    You brought up the concern I have about how do we try these 
terrorists, and it has become a political football. I believe 
it has become a political football because, in my district in 
rural Pennsylvania, the truck driver, the average American, the 
average citizen in my district is asking me, why are we giving 
these people the same rights that American citizens have when 
they are not?
    The underwear bomber, I understand after 50 minutes of 
interrogation they read him his Miranda rights, and he took the 
advice of the Miranda rights and shut up and waited for his 
attorney to get there.
    So that is the reason it is political football, I believe. 
I think there is an accepted, credible system out there, and 
that is the military tribunals. So I would like to hear your 
comments on what you think the solution--do we have the 
solution in place?
    Mr. Zarate. Congressman, I agree with you. I think one of 
the challenges that this administration faces--and it perhaps 
is of their own making, and I think to a certain extent it is, 
especially with the Khalid Sheikh Mohammed decision, to bring 
him to New York and some of his compatriots to face trial in 
New York--is the lack of clarity as to what exactly is the 
legal structure and paradigm being applied.
    Because what you will have in that context is, in essence, 
a tiered legal system. For the worst of the worst, they are 
getting the most protections under U.S. law, the same 
protections you and I would get in a civilian court, while 
there are lower-level al Qa'ida individuals who will not face 
trial at all, will have no due process as we understand it in a 
civilian court, with no explanation as to why that system makes 
sense or is in concert with the rule of law.
    So I think the first thing that needs to happen is a 
framework that explains these tiers and explains exactly why 
they are being the applied. I am not against fundamentally--I 
was a former prosecutor, terrorism prosecutor--to using the 
criminal legal system. But it is one tool of many and shouldn't 
necessarily be the first point of entry for these individuals.
    And I think it goes to the nature of what we are facing. I 
think we have to make some choices. If we want intelligence 
from terrorists we capture, like the Christmas Day bomber, then 
you don't Mirandize him and you don't put him immediately into 
the criminal legal system. But it doesn't mean you can't 
prosecute him later, as we did, for example, with Jose Padilla.
    Mr. Shuster. Mr. Clarke, I wondered what your thoughts 
were. What do you believe al Qa'ida's view is on the situation 
where we are bringing him into our Federal courts and giving 
him the rights of the American citizen? Do you think that is 
something they are smiling about when they see that? Does that 
help their cause?
    Mr. Clarke. I don't think they give it two seconds' 
thought, and, frankly, I am not sure we should either. You 
know, the difference between the military tribunals, which you 
suggest wouldn't have Mirandized the prisoner, and the civil 
criminal process has been exaggerated. It is really not that 
different, in terms of their rights.
    I think we have successfully prosecuted a very large number 
of terrorists under the Bush administration and under the 
Clinton administration in the Federal civil system with very, 
very high success rates. And I just don't understand why people 
are afraid of using the Federal civil system, civil court 
system, the criminal court system, which has proven to be so 
effective.
    Mr. Shuster. I would submit, I think the folks in my 
district are saying because it will take months and months, if 
not years, and millions of dollars of money that need to go out 
to fight terrorism.
    Mr. Clarke. So will the military system, sir.
    Mr. Shuster. What is that?
    Mr. Clarke. So will the military tribunal system, sir. It 
will take just as long and cost just as much.
    Mr. Shuster. Well, I guess time will show us what the facts 
are on that.
    Mr. Clarke. We already have historical data that would 
suggest that.
    Mr. Shuster. Right.
    The next question I have is--and I see my time is running 
short, so if you don't have an opportunity to answer, if you 
could give us something in writing. It is something concerning 
Sheikh Abu Yahya al-Libi--I keep hearing his name--who I have 
heard him called ``bin Laden, Jr.,'' and the most effective 
propagandist they have in getting these young people to come to 
their cause.
    So I wondered if all three of you might--again, he is going 
to gavel me down here in 40 seconds. So I will start with you, 
Mr. Coll, and if you have any views on him and what your 
thoughts are, if you could comment.
    Mr. Coll. I would be happy to come back in writing on that.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Shuster. Mr. Zarate.
    Mr. Zarate. Abu Yahya al-Libi is one of the most prominent 
clerics that al Qa'ida has. He has become prominent in terms of 
his sermons and his Internet presence. He has gained fame 
because he escaped from Bagram, and that has created more to 
his mythos as a leader in al Qa'ida. And I think he is an 
important figure that needs to be killed or captured.
    Mr. Shuster. Mr. Clarke, any thoughts on that?
    Mr. Clarke. Yes, I would agree with Juan on that.
    Mr. Shuster. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentleman from 
Pennsylvania.
    I would remind Members that we have approximately six 
minutes to make the vote, but it is very much Chairman 
Skelton's intention to return after those votes.
    [Recess.]
    The Chairman. [Presiding.] Our hearing will resume with Mr. 
Heinrich, please.
    Mr. Heinrich. Thank you, Mr. Chairman.
    I want to thank our guests for being here today.
    I have one question I want to direct first at Mr. Coll, and 
then feel free, the rest of you, to chime in as well.
    But I wanted to ask you, Mr. Coll, one of the fundamental 
limiting factors to our success in Afghanistan, which is 
obviously related to this whole issue in a deep way, is just 
the willingness of the Afghan Government to do some of the 
fundamental reforms, the anticorruption measures and other 
things that are necessary.
    And I wanted to get your--as somebody who has written about 
many of these players in Afghanistan for a long time, I wanted 
to get your take on how you would characterize the willingness 
of the Karzai government today to make some of the changes that 
we need to see to realize our goals in Afghanistan.
    Mr. Coll. Well, all the evidence is that it is inadequate, 
and it is certainly one of the major strategic risks facing 
U.S. policy in Afghanistan.
    Having said that, the better news is that the Afghan 
Government is larger than President Karzai. I have long worried 
about the extent to which, out of necessity and expediency 
both, we have tended to make him an indispensable figure and 
run everything through his office. You see now in the 
relationship between parliament and the President the potential 
for a sounder, more broadly based approach to the limited role 
that the Kabul government actually has to play. But it is 
important because of the credibility that it provides for 
international policy in Afghanistan.
    And I recognize, as well, that General McChrystal and 
Ambassador Eikenberry and others have a vision that is based on 
the idea that there are many more actors in Afghanistan who can 
turn things around than those just in the Kabul ministries. So, 
working through effective governors at the provincial and even 
sub-provincial level will be critical to achieving the, sort 
of, stability that will allow Afghanistan security forces to 
deploy and U.S. forces to pull back.
    Mr. Zarate. Congressman, just to piggyback, I think it is a 
very good point. With relation to that, I think a big question 
that the Afghan Government has and that our policy confronts is 
the question of the center versus the locality, how much we 
rely on local and tribal partners in the first instance versus 
the focus on Kabul and the central government and, in 
particular, from a security perspective, whether or not we 
begin to rely more heavily on local security militias.
    I think that becomes a very important policy question for 
not only folks here in Washington but also in Kabul. You have 
had experiments that have worked well in Wardak province and 
other places, but it is not clear that that model will work 
everywhere in Afghanistan. And we have to be careful about 
diffusing the security of the country.
    And so I think there are some very important inflection 
points here with respect to Kabul's ability to control its own 
security.
    Mr. Heinrich. As a follow-up question, are there 
opportunities that we are missing to engage the wider 
government, the broader government, that we should be taking 
advantage of to make sure that all our eggs aren't in that 
Kabul basket?
    Mr. Coll. I think it is critical that U.S. policy in 
Afghanistan approach these political equations with as much 
energy and creativity and resources as it is approaching the 
military equation. And I think you have described it, framed it 
correctly, which is that a successful policy of national 
reconciliation and political reintegration that complements the 
security piece in Afghanistan over the next three to five years 
has to be more broadly based than the presidential palace.
    Now, you can achieve that broader base through lots of 
different mechanisms. You can turn to parliament, you can use 
loya jirgas and other institutions, traditional institutions. 
You can do it regionally, as well as nationally. But you have 
to do it. And it also has to be reinforced by regional 
diplomacy that brings to bear pressure on these factions in 
Afghanistan that are otherwise not likely to participate in 
such a reconciliation program.
    And I think there has always been an articulation of this 
vision in U.S. policy, but now bringing it to bear 
successfully, it is hard, it is going to be a zig-zag, it is 
always going to be incomplete. But if it is not made a 
priority, then it won't succeed.
    Mr. Heinrich. Thank you, Mr. Chair.
    The Chairman. I thank the gentleman.
    Mr. Kratovil.
    Mr. Kratovil. Mr. Chairman, first, let me thank you for 
allowing folks to come back so we had an opportunity to ask a 
few questions.
    Let me just follow up on Mr. Heinrich's question. His 
question sort of went to the issue of, how do we make that 
policy in Afghanistan better? My question is a little bit 
different.
    Given the facts related to this Christmas Day incident and 
given what we know is going on in Yemen and the problems there, 
what impact does that have on your view of the strategy at all 
in Afghanistan, in terms of putting more troops on the ground?
    Any of you or all of you.
    Mr. Coll. It has no impact on my view, in the sense that I 
think that, as I believe it was Mr. Clarke pointed out, 
understanding that there were problems outside of the Pakistan-
Afghan region predated the Christmas attack and robust activity 
was under way, it just wasn't publicized.
    I think that the reason the President made the right 
decision in Afghanistan has to do with core al Qa'ida, which, 
as we talk about earlier, remains resilient and, while under 
pressure and diminished, still able to facilitate the transfer 
of bomb-making techniques, still able to participate in robust 
media operations, and still able to assist the destabilization 
of both the Pakistan and Afghan Governments.
    Mr. Coll. So it is a resilient danger that needs to be 
addressed directly. And I think that that is the rationale, 
ultimately, for the policy in Afghanistan.
    Mr. Clarke. I think Steve is right. They are very different 
situations, and they call for very different kinds of 
responses. In Afghanistan, things obviously got out of control. 
And we, therefore, now need a very large military force there, 
at least for the short term. In Yemen, we are able to work 
through an existing government, give it military support, give 
it intelligence support, and hopefully give it development, 
economic support.
    There will be other places around the world where al Qa'ida 
will pop its head up or affiliated groups will pop their heads 
up. And, at least initially, these small footprint solutions, 
like what we are doing in Yemen, are the appropriate response.
    Mr. Zarate. Congressman, the only thing I would add--and I 
agree with both my colleagues here--is that there is a 
demonstration effect to our policy. And so, shifting the 
momentum of the Taliban in Afghanistan becomes important, in 
terms of the global posture that the U.S. has, in part, for our 
friends and allies, as they understand we are resolute and are 
willing to fight for what we believe in and to work with them. 
That becomes very important with Pakistan, I think, in the long 
term.
    And I also think in terms of the enemy, it becomes 
important. We don't want to play into their hands, and we don't 
want to needlessly spend blood or treasure, but, at the same 
time, we need to be resolute. And I think one of the lessons of 
Iraq is that it was one of the first times that we had, when 
bloodied, stood up to al Qa'ida and surged. And I think that 
was a devastating lesson to our enemies, and I think that is 
something we should keep in mind in Afghanistan.
    Mr. Kratovil. We had testimony several months ago--and I am 
trying to remember the gentleman's name--in talking about 
Afghanistan, what we are going to do in Afghanistan. And his 
point was, of course if we are squeezing in one place, it would 
bleed out into another.
    One of you mentioned what has happened in Yemen as a result 
of the crackdown in Saudi Arabia. Can't we simply expect that 
to happen, based on the crackdown in Afghanistan?
    Mr. Coll. Well, the Government of Pakistan is certainly 
concerned about spillover effects. Their version of what has 
happened after 9/11 emphasizes the consequences to Pakistan of 
the migration of al Qa'ida from Afghanistan into Pakistan as a 
result of U.S. military action there.
    But I think my response to that argument that you referred 
to, which has been part of a very healthy American discourse 
about U.S. policy choices in Afghanistan, this notion that you 
squeeze the balloon and Yemen pops up and Somalia pops up, is 
that there is no territory that means to al Qa'ida what the 
Afghan-Pakistan border means to al Qa'ida. And the role of the 
core leadership and networks that are located there is distinct 
from any other expression. That doesn't mean these other 
expressions aren't dangerous. But in order to achieve any 
definition of success against al Qa'ida, that core organization 
needs to be disabled and destroyed. And I do think it is a 
distinct problem.
    Mr. Kratovil. Okay.
    Mr. Zarate. I would just agree. I would say that al Qa'ida 
core will make their last stand in the Afghan-Pak border 
region. You are not likely to see a grand al Qa'ida caravan to 
some other locale, the way we saw, for example, the move from 
Sudan to Afghanistan in the past.
    That doesn't mean the regional affiliates or radicalized 
cells and individuals won't be a problem in the future. They 
will. But it doesn't mean that there is the balloon effect that 
people talk about.
    Mr. Kratovil. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Let me ask Mr. Clarke, we have had some homegrown, domestic 
radicalization from Zazi, the Major Hasan, David Headley, and 
the Northern Virginia Five. What do you make of this?
    Mr. Clarke. I think it is remarkable we don't have more. 
When you think of it, you know, we are a nation of 300 million 
people.
    And there have clearly been attempts by al Qa'ida and 
similar groups to radicalize populations in the United States, 
including prison populations. And, so far, I think we have done 
a fairly good job in the United States on both the ideological 
front and the intelligence front. What I mean by that is, I 
think the American-Muslim community--or communities, I should 
say--have been very good in waging the ideological war within 
their own communities against al Qa'ida and against what it 
believes in. And we have been very successful.
    And it has been remarkably different in Europe. If you look 
at England, you look at Germany, you look at France, those 
Islamic communities have been more successfully radicalized 
than those in the United States.
    I think it is logical to expect that this is going to 
happen; we are going to have these onesies and twosies of 
people, individuals who are radicalized in part through 
Internet outreach, radicalization on the Web, at least 
initially, and in part through the occasional radical imam like 
al-Awlaki, who has now moved to Yemen but was in northern 
Virginia and elsewhere.
    I think it is largely, though, sir, Mr. Chairman, I think 
it is a good-news story that so little of it has happened and 
that the FBI has done a relatively good job in tracking what 
problems there have been here.
    The Chairman. I thank you.
    Any comments from the other two gentlemen?
    Mr. Zarate. Mr. Chairman, I would just repeat what I said 
in my testimony, which is I don't think we should overreact in 
terms of the number of cases we have seen over the past year. I 
think we have seen a fairly consistent element of a domestic 
radicalization problem that hasn't reached a crisis or tipping 
point, as Dick mentions. You know, you have had Derrick 
Shareef, Sadiqi, the Fort Dix plot, the Torrance cell. You 
know, over the last eight years, we have had numerous cases 
where the FBI and others have done very good work in 
disrupting. So I don't think we should make any grand 
conclusions.
    Two things we should watch, though, is the clustering, the 
fact that you have groups of individuals within communities, 
like the American Somalis, that are drawn to the ideology; and, 
secondly, the continued attempts to reach the foreign terrorist 
organizations themselves. And I think that is a bit different, 
and it is the kind of thing that we need to watch very 
carefully. Because that presents a very different kind of 
danger than the onesies and twosies that Mr. Clarke talked 
about.
    The Chairman. Thank you. Mr. Coll?
    Well, gentlemen, this has been an excellent hearing, and we 
certainly appreciate your being with us. And we feel that we 
have learned a great deal. And we look forward to seeing you 
again.
    [Whereupon, at 12:28 p.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            January 27, 2010

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 27, 2010

=======================================================================
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 27, 2010

=======================================================================
      
             RESPONSE TO QUESTION SUBMITTED BY MR. SHUSTER

    Mr. Coll. Abu Yahya Al-Libi is the nom de guerre of a Libyan-born 
jihadi who has fought in and around Afghanistan since at least the 
early 1990s. He became a celebrity after his escape from Bagram Prison 
outside of Kabul in 2005. Some analysts have praised his communication 
skills; he has some education and has been able to exploit in 
propaganda stories about chatting with American prison guards at Bagram 
as well as his daring escape. It is doubtful that any al Qa'ida leader 
will ever gain the global reputation that Osama Bin Laden enjoyed at 
the height of his popularity, but Libi does represent a charismatic 
example of the generation of jihadis shaped by the battlefield and 
prison narratives that followed the September 11 attacks and the wars 
in Afghanistan and Iraq. [See page 29.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 27, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. Should the United States engage countries such as 
Yemen using security cooperation alone or should U.S. policy be broader 
and focus on development and reform irrespective of the host-nation 
commitment to U.S. policy and cooperation on counterterrorism issues?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
    Mr. Skelton. You have been working counterterrorism issues for 
decades, and serving at very senior levels of the U.S. government has 
given you perhaps a unique vantage point in terms of organizational 
changes in the federal government that have occurred since 9/11. Can 
you provide us with an overview of how our government--and in 
particular the Department of Defense--has been working together in 
light of the continually evolving threat posed by al Qa'ida? Where and 
what do we need to improve? What types of inefficiencies still exist 
that could potentially be exploited by our enemies?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
    Mr. Skelton. How do you assess the risk that Americans fighting 
alongside groups like al Shabaab in Somalia will return to the United 
States intent on attacking the homeland?
    Mr. Zarate. The al Shabaab and the jihadi battlefield in Somalia 
continue to attract radicalized recruits and support from around the 
world, including individuals from the United States. Unfortunately, a 
series of recent cases, including announcements on August 5, 2010, by 
the Attorney General of new arrests in the United States for terrorist 
support to al Shabaab, underscore this festering problem. The pipeline 
of Americans, both non-African converts to Islam and American-Somalis, 
to fight in Somalia with al Shabaab raises the direct concern that such 
fighters and radicalized individuals will be trained and then 
redeployed to commit attacks in the United States. This has been a 
central concern of U.S. counterterrorism officials since 2005.
    There are three key factors that raise concerns that the al Shabaab 
will serve as a platform for deployment of Westerners to attack in the 
homeland:
    <bullet>  The al Shabaab's view that it forms part of al Qa'ida's 
global network as well as continued interaction between al Qa'ida 
elements in East Africa with the al Shabaab make it likely that al 
Shabaab will try to project force and its influence beyond Somalia--
either on its own or at the prompting of al Qa'ida elements. The al 
Shabaab's July 2010 suicide attacks in Kampala are troubling because 
they demonstrate the group's willingness to attack beyond the borders 
of Somalia against a perceived enemy. In addition, the al Shabaab seems 
particularly willing to try to bait U.S. intervention and reaction, 
which makes their potential actions against U.S. interests more 
variable and less susceptible to deterrence.
    <bullet>  With the presence of Americans and other Westerners in al 
Shabaab training camps who could travel relatively easily back to the 
United States, there is greater opportunity for the al Shabaab to 
deploy an individual or group to the United States to commit an act of 
terror. The reality that the first American suicide bomber in October 
2008, Shirwa Ahmed, was an American-Somali who attacked a site in 
Somalia serves as a clear warning that Americans can be radicalized and 
deployed as suicide attackers. With others following in his footsteps 
in Somalia and the failed Times Square car bomb, the concerns about a 
possible American committing an act of terror in the Homeland have only 
grown.
    <bullet>  Events over the last 18 months have perhaps taught the al 
Shabaab a lesson. To project force into the United States--even with a 
failed attack (as seen vividly in the Detroit airline incident and the 
bungled Times Square car bomb)--may be a success. With perceptions of 
U.S. overreaction to the Detroit and Times Square events, groups like 
al Shabaab may now believe that disruption vice destruction in the 
United States is a worthy goal. They also may have learned the lesson 
from regional groups and allies of al Qa'ida, like al Qa'ida in the 
Arabian Penninsula and the Pakistan Taliban, that deployment of just 
one operative for an attack can raise the group's profile and inject 
fear into American society--and could perhaps lure the United States 
into a direct military confrontation.
    These factors combined with the continued allure of Somalia as a 
perceived battlefield make it likely that the al Shabaab--on its own or 
as a proxy for al Qa'ida--will attempt to deploy an operative into the 
United States for an attack. Fortunately, there are counterweights to 
this possibility. The al Shabaab is under increasing pressure within 
Somalia, and its recruits--Westerners or otherwise--have been 
concentrated on maintaining and expanding control of territory in 
Somalia. In addition, within the United States there is intense focus 
by law enforcement and the intelligence community on this potential--
since 2006--and the recent cases revealed publicly demonstrate law 
enforcement's continued focus on any pipeline--human or financial--to 
Somalia. Finally, the Somali-American community in urban areas like 
Minneapolis have begun to recognize that they have a problem in their 
midst and have cooperated with law enforcement to try to prevent the 
radicalization of Somali-American youth.
    Mr. Skelton. If we are seeing al Qa'ida-affiliate threats spread 
from South Asia to the Arabian Peninsula, where do you believe is the 
next potential region of instability and what specifically can we do to 
address this evolving threat?
    Mr. Zarate. I have described the evolving violent Sunni extremist 
problem as a terrorist Hydra--with AQ Core (made up of the senior 
leadership and cadre of historical al Qa'ida present largely in Western 
Pakistan); AQ affiliates and allies (to include groups like al Qa'ida 
in the Arabian Penninsula, al Qa'ida in the Islamic Maghreb, al Qa'ida 
in Iraq, al Shabaab, the Pakistan and Afghan Taliban, Islamic Jihad 
Union); and AQ-inspired individuals and cells all operating in a global 
battlefield. The most dangerous manifestations of regional expansion 
for al Qa'ida lie in the relationships with regional organizations that 
have ideological, historical, and logistical ties to AQ Core as well as 
small groups of radicalized individuals who are committed to the 
strategic goals and actions defined and prompted by al Qa'ida.
    Aside from Afghanistan and Pakistan and all the groups operating in 
those countries (including Lashkar-e-Taiba, Haraka ul Jihad I Islami 
(HUJI), and HUJI-Bangladesh), the United States needs to worry about 
physical safe haven in numerous parts of the world which provide the 
opportunity for Sunni terrorist allies to recruit, train, mingle, and 
strategize together. The arc from Yemen through Somalia and East Africa 
to Southern Sudan and the Maghreb provides the most important and 
dangerous arc of instability and opportunity for our terrorist enemies. 
The growing radicalization in Central Asia--to include southern Russia 
and western China--is of concern especially with organizations like the 
Islamic Jihad Union and the East Turkestan Islamic Movement (ETIM) 
operating aggressively in the region and beyond. The problem of 
extremism in the Gulf, Iraq, Egypt, and the Levant needs to be watched 
carefully, though al Qa'ida has had difficulty in establishing bases in 
the countries of this region after crackdowns in the post 9/11 period. 
Finally, the problems of ``pocket havens''--small communities of 
radicalized individuals who are susceptible to recruitment and 
enlistment on their own or by organized terrorist groups--need to be 
treated seriously. These pockets can be found in refugee camps (e.g., 
Palestinian camps in Lebanon), particular villages (e.g., Tetuan in 
Morrocco), and in urban environments among disaffected minorities 
(e.g., certain Muslim sub-communities in Europe and North America).
    The most important thing that can be done is to empower and enlist 
regional and local actors to take up the task of disrupting active al 
Qa'ida and terrorist activity while also trying to prevent and 
counteract the radicalization of susceptible populations. This model 
will look different in each instance depending on the environment and 
how the threat is materializing, but the key remains local engagement 
and cooperation by security and law enforcement agencies, aid agencies, 
and credible community voices. The United States can always be helpful 
by providing information, capacity, and relevant enablers. The example 
of Southeast Asia's success in addressing the terrorist threat is 
informative, with capable and willing countries working together with 
the assistance of Australia and the United States to disrupt terrorist 
cells, prevent radicalization, build collective capabilities and 
defenses, and to engage in counterinsurgency efforts where needed.
    Mr. Skelton. In your written testimony, you talk about how al 
Qa'ida's public support is declining and how they have essentially 
politically isolated themselves since 2005. In addition to the policy 
options you discuss, how specifically can the United States take 
advantage of this downward trend in the popularity of al Qa'ida and 
what strategies would you recommend?
    Mr. Coll. The best strategy is to work through others in the 
Islamic world--particularly to help highlight the narratives of Muslim 
and other civilian victims of al Qa'ida's indiscriminate bombing, and 
to publicize polling data that documents the abhorrence that most 
Muslims feel toward suicide bombing. Directing financial support, 
through proxies if possible, to civil society and human rights groups 
in Muslim-majority countries who help victims of terrorist violence is 
one specific idea that would push in this direction. Direct arguments 
made by American officials are less likely to be effective.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. SMITH
    Mr. Smith. Should the United States engage countries such as Yemen 
using security cooperation alone or should U.S. policy be broader and 
focus on development and reform irrespective of the host-nation 
commitment to U.S. policy and cooperation on counterterrorism issues?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. In your testimony you talked about the effective use 
of U.S. Special Operations Forces (SOF) to build national capacity of 
our foreign counterparts and partners. With this in mind, and 
considering high-priority regions of concern, where should SOF 
concentrate their efforts geographically to enhance partnerships and 
limit or mitigate threats posed by AQ and AQ affiliates?
    Mr. Zarate. The U.S. Special Forces (SOF) and the relationships and 
capacities they have built and continue to build around the world are 
critical to our long-term counterterrorism success. Counterterrorism 
operations around the world will often depend directly on the 
discipline and effectiveness of small units able to target and disrupt 
terrorist activity surgically. SOF helps to build that worldwide 
capacity and network that is advantageous to U.S. interests.
    The SOF's resources are best spent with countries that are aligned 
with U.S. interests, have the willingness to engage in the terrorism 
fight, and will be important to local and regional disruption of 
emerging terrorist threats. Those special forces from countries that 
have been active with the United States in war zones like Afghanistan 
and Iraq are prime candidates as force-multiplying partners in building 
further global capabilities.
    The most critical of the special forces engagements globally will 
come with countries that can serve as regional enablers for their 
neighbors to address existing and future threats. In East Africa, this 
includes work with Ethiopian, Kenyan, and Ugandan forces. In the Middle 
East, this means continuing to build the capabilities of strong 
partners like Jordan, the United Arab Emirates, Saudi Arabia, Morocco, 
and Iraq. In Southeast Asia, this means working collectively with 
Australian special forces to build the capabilities of Singaporean, 
Thai, and Indonesian forces. With our special forces and existing 
capable allies, we need to be building credible partners in key parts 
of the world where al Qa'ida and its allies have potential footholds to 
ensure it cannot gain safe haven or expand its global reach.
    Ms. Sanchez. In your testimony you talked about a need to reset 
strategic communications on a nonpartisan basis. What specific 
strategic communications strategies would you offer policy makers as we 
consider the morphing AQ threat of 2010 and beyond?
    Mr. Coll. The most important priority is to conceive of strategic 
communications policy so that it fits with the media technologies of 
our time. To date, American strategic communications thinking has 
remained rooted in the ``broadcast tower'' or one-to-many paradigm of 
the Cold War era. Anyone who keeps a Facebook or Twitter account will 
recognize that many-to-many is the new paradigm. Innovators at the 
State Department such as Alec Ross, Secretary of State Clinton's 
adviser on how digital technology creates opportunities for diplomacy, 
offers an example of the new thinking that the government requires. The 
next step is to think about how models of many-to-many communication 
can be distributed to reinforce Muslim public opinion that is already 
hostile to al Qa'ida and its tactics. This will require some risk-
taking that public diplomacy thinkers have so far found difficult.
                                 ______
                                 
                   QUESTION SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. One of the most disturbing aspects of al Qa'ida's 
demonstrated elasticity and adaptability is its use of the Internet to 
attract new followers and facilitate radicalization. The Internet has 
allowed al Qa'ida to reach out beyond the constraints of regional 
borders and the geographical locations of its training camps to spread 
the extremist mindset and encourage newcomers to act on the ideology's 
call to violence.
    This ability to harness the Internet is especially concerning due 
to the emerging threat of ``homegrown'' terrorist and domestic 
radicalization. In fact, the Center for Strategic and International 
Studies ``Transnational Threats Update'' that came out last month 
(Volume 7, Number 9, Nov-Dec 2009), stated that the threat of 
domestically radicalized recruits ``has manifested itself as a 
possibility in more than 20 cases since 9/11, and at least a dozen in 
the past year.''
    And Mr. Coll wrote last week in a piece for the New American 
Foundation titled ``Threats'' (January 18, 2009) that al Qa'ida ``has 
evolved into a jihadi version of an Internet-enabled direct-marketing 
corporation structured like Mary Kay, but with martyrdom in place of 
pink Cadillacs.''
    As the Senate Committee on Homeland Security and Government Affairs 
reported in its 2008 Staff Report on violent Islamist Extremism, the 
Internet, and the Homegrown Terrorist Threat, one of the primary 
drivers of the expanding al Qa'ida threat to our homeland is the use of 
the Internet to enlist individuals to joint in violent extremism 
without ever really affiliating with a terrorist organization.
    So as we look forward and try to analyze what the U.S. should do to 
better prevent future terrorist attacks and ultimately defeat and 
eliminate al Qa'ida, understanding the emerging threat of the Internet 
in radicalization is a critical aspect.
    Mr. Zarate, given your extensive experience in providing and 
advising strategic direction for combating terrorism, can you provide 
your opinion as to the way forward to preventing al Qa'ida from 
harnessing the power of the Internet to spread radical and violent 
Islamic ideologies and recruit from inside the borders of the U.S.
    Can you address both the technological and the communication 
aspects of addressing this threat? Do we have the necessary cultural 
understanding and communication skills to counteract the propaganda 
produced by al Qa'ida and its affiliates? If not, how do we develop the 
necessary skill sets?
    Mr. Zarate. The Internet has become a global accelerant to al 
Qa'ida's cause, giving it reach well beyond its geographic bounds and 
creating the sense of a global, virtual caliphate that is attractive to 
adherents around the world. The allure of the al Qa'ida-inspired 
narrative and radicalization is growing stronger in Western countries 
among disaffected individuals. The approach to the Internet is 
complicated for the United States given our constitutional devotion to 
First Amendment principles and the necessary openness of communication 
via the Internet.
    There are three key avenues of engagement on the Internet for the 
United States:
    <bullet>  The United States and allies should be monitoring closely 
and exploiting the communications and virtual interactions of suspect 
individuals and groups online. Intense monitoring and disruptive 
actions that result should create a sense of mistrust among violent 
Islamist extremists online that will help mute or restrict their use of 
the Internet as an all-purpose recruitment, training, funding, and 
deployment tool.
    <bullet>  The United States should educate and leverage the private 
sector, including the Internet Service Providers when appropriate, to 
police the Internet and to filter Web sites that run counter to legal 
and contractual obligations.
    <bullet>  Most importantly, the United States should enlist, 
encourage, and enable private sector actors and foreign counterparts to 
counter the messages and presence of extremists online. There should be 
a form of cyber-privateering that empowers certain groups and 
individuals to counter the enemy's extremist ideologies, through direct 
theological and moral challenge, satire and humor, and the availability 
of alternate positive channels for those who may be searching for 
meaning and identity online.
    There are limitations to what the U.S. Government can do--based on 
law and effectiveness. There is not enough expertise in the U.S. 
Government to do this all; the U.S. Government is not a credible voice 
in these online extremist venues and among susceptible populations; and 
there are constitutional limits to what the U.S. Government can do if 
its message could affect or be seen as directed toward U.S. citizens or 
a U.S. audience. Importantly, these limitations point to the need for 
others--foreign governments and non-state actors and networks--to be 
engaged online to counter the violent Islamist extremist ideology and 
related communities emerging. Fortunately, we are beginning to see just 
this, with American Muslims beginning to counter extremist messages 
online with videos, Web sites, and blogs.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. The President has recently announced the suspension of 
all Guantanamo Bay detainees being released to Yemen. However, 
detainees are still being released to marginal countries, with two 
being released to Algeria just last week. Historical data also points 
to the fact that one in five released detainees returns to terrorist 
activities. Algeria's neighbor, Libya, has been on the State 
Department's list of nations which sponsor terrorism, and it is 
arguable that conditions in the region are ripe for a resurgence of 
terrorist activity. Given this, shouldn't we take a good hard look at 
to which countries we allow detainees to return? Additionally, should 
the list of nations with ``State Sponsored'' terrorism be updated and 
expanded to include those nations which provide terrorists with a safe 
haven?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
    Mr. Wilson. Much attention has been given, and rightfully so, to al 
Qa'ida's growth in the Middle East, Arabian Peninsula, and North 
Africa. However, many countries in South America are exhibiting signs 
of being ripe for the growth of terrorist movements: heavy narcotics 
trades, governments largely seen as illegitimate and growing 
unemployment. What are the opportunities to ensure we are not caught 
blindsided by the growth of terrorism in this region?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
    Mr. Wilson. In recent years, separatist groups, such as Somalia's 
al Shabaab, have pledged their support to al Qa'ida. Arguably, their 
pledge comes from financial and armament motivation, as opposed to 
aligned religious ideologies. With the increase in separatist movements 
in Northern Africa, in places such as Sudan, Eritrea, and Algeria, and 
domestic unrest with the al-Houthi rebellion in Yemen, what measures 
are, or may be taken, to prevent the spread of al Qa'ida's reach to 
these movements?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
    Mr. Wilson. The President has recently announced the suspension of 
all Guantanamo Bay detainees being released to Yemen. However, 
detainees are still being released to marginal countries, with two 
being released to Algeria just last week. Historical data also points 
to the fact that one in five released detainees returns to terrorist 
activities. Algeria's neighbor, Libya, has been on the State 
Department's list of nations which sponsor terrorism, and it is 
arguable that conditions in the region are ripe for a resurgence of 
terrorist activity. Given this, shouldn't we take a good hard look at 
to which countries we allow detainees to return? Additionally, should 
the list of nations with ``State Sponsored'' terrorism be updated and 
expanded to include those nations which provide terrorists with a safe 
haven?
    Mr. Zarate. The problem of returning detainees held in Guantanamo 
(GTMO) in a manner that both protects U.S. national security interests 
and upholds our obligations to protect the individuals' human rights 
has bedeviled both the Bush and Obama Administrations. The problem has 
grown more acute with the remaining population in GTMO comprising a 
more dangerous population of terrorist operatives than the original 
collection of GTMO detainees. Because of the nature of the remaining 
population, the recidivism rates are likely to be much higher than past 
released detainees. In addition, from past transfers of GTMO detainees, 
we know that security guarantees and rehabilitation programs are not 
fool-proof and that some of the returned detainees will decide to 
return to the battlefield.
    This reality then puts a premium on the U.S. Government's risk 
calculus tied to each release and the level of confidence we have in 
the ability and willingness of a host government to constrain the 
former detainees' ability to rejoin the fight or serve as an 
inspirational recruiter for terrorist causes. The United States should 
therefore review carefully the state of a recipient country's security, 
the status of al Qa'ida-related groups or cells in that country, the 
vulnerability of the community in which the detainee will be returned, 
and the capability of that country to adhere to its security and human 
rights agreements. This calculus, especially after the attempted attack 
on December 25th, has forced the Obama Administration to halt all but 
one of the GTMO transfers to Yemen.
    The question of whether countries that provide terrorists safe 
haven should be listed as state sponsors of terror is an important one. 
Certainly, those countries that actively support or are willfully blind 
to the use of their territory by known and recognizable terrorist 
organizations should be candidates for listing as state sponsors of 
terror. The level of knowledge and complicity of senior elements in the 
government for such safe haven must play into that determination.
    This, however, is different from the situation in which terrorists 
are taking advantage of the weaknesses or geography of a country, whose 
government attempts to control its territory or does not have the means 
to do so effectively. If there is a willingness to control territory 
and to deny safe haven, then that government should not be considered a 
state sponsor of terrorism. Even so, there needs to be open recognition 
of those parts of the world that present terrorist and transnational 
illicit networks the physical space to organize and mingle, as well as 
a recognition that sovereign states may not be able to police their 
territory. Because of the importance of safe haven to international 
security, there needs to be a renewed focus not just by host 
governments but by regional actors and the international community to 
help deny safe havens with capacity building, active measures to 
quarantine or fill safe havens with government controls, and a new 
international legal framework and understanding of the need to deny 
safe haven.
    Mr. Wilson. Much attention has been given, and rightfully so, to al 
Qa'ida's growth in the Middle East, Arabian Peninsula, and North 
Africa. However, many countries in South America are exhibiting signs 
of being ripe for the growth of terrorist movements: heavy narcotics 
trades, governments largely seen as illegitimate and growing 
unemployment. What are the opportunities to ensure we are not caught 
blindsided by the growth of terrorism in this region?
    Mr. Zarate. The problem of Sunni or Shia-based terrorism in South 
America cannot be ignored. At a minimum, there is a potential that 
human smuggling networks and transnational organized criminal networks 
(to include drug cartels and gangs) could be used by terrorist 
organizations, like al Qa'ida or Hizballah, to gain entry of operatives 
undetected into the United States. There is also the potential that 
diaspora communities in South America could serve as covers for 
operatives to recruit, train, raise funds, and deploy against U.S. 
interests. Tied to this problem is the reach of transnational criminal 
networks--with the logistics and funding to help those willing to pay--
and the permissive environment created by regimes like Venezuela and 
Nicaragua to allow nefarious actors to operate. These dangers are 
exacerbated by an increasing Iranian presence in the region thanks to 
commercial, financial, and governmental relationships with Venezuela.
    These potential dangers require the United States to monitor 
vigilantly the transnational networks that could be used to smuggle 
terrorists, the suspect individuals who may be embedded in diaspora 
communities, and any signal of growing radicalization of Latin American 
populations. Most importantly, this requires building and maintaining 
awareness, capacity, and cooperation with key governments and related 
authorities in the region since most of the work of detecting suspect 
terrorist and criminal activity will fall to local and national 
authorities.
    Mr. Wilson. In recent years, separatist groups, such as Somalia's 
al Shabaab, have pledged their support to al Qa'ida. Arguably, their 
pledge comes from financial and armament motivation, as opposed to 
aligned religious ideologies. With the increase in separatist movements 
in Northern Africa, in places such as Sudan, Eritrea, and Algeria, and 
domestic unrest with the al-Houthi rebellion in Yemen, what measures 
are, or may be taken, to prevent the spread of al Qa'ida's reach to 
these movements?
    Mr. Zarate. It is critical to constrain the global reach of al 
Qa'ida by preventing or breaking its connections with local and 
regional groups that could be ideologically aligned and used as 
strategic footholds globally. It is also important to distinguish 
between groups like the al-Houthis in Yemen, who are Shia, from the 
global Sunni extremist movement led by al Qa'ida, as well as 
distinguishing local grievances with no violent Islamist extremist 
connections from the broader global movement.
    Constraining al Qa'ida's reach requires numerous steps, to include 
the following:
    <bullet>  Pressuring the AQ Core to the extent that they are not 
able to provide strategic or tactical guidance or support to their 
regional networks or potential allies;
    <bullet>  Preventing the financial ties that often bind such 
groups;
    <bullet>  Decapitating the leadership of regional groups with the 
deepest and historical ties to AQ Core, while preventing and 
interdicting the injection of key leadership or guidance to the 
regional affiliates;
    <bullet>  Assisting regional governments to attack the 
infrastructure of the local or regional affiliates (thereby forcing 
them to focus on survival and local issues versus AQ's global agenda);
    <bullet>  Messaging by credible voices about the foreign nature of 
AQ, the antithetical and destructive agenda and interests of the AQ-led 
movement, and the likely losing strategy of garnering more attention 
from security authorities by associating with AQ; and
    <bullet>  Through local authorities, identifying and pacifying 
existing sectarian or local conflicts that could be exploited by al 
Qa'ida to radicalize and recruit adherents and create a new battlefront 
(e.g., the Christian/Muslim conflict in Nigeria; tensions in Southern 
Thailand).
    Mr. Wilson. The President has recently announced the suspension of 
all Guantanamo Bay detainees being released to Yemen. However, 
detainees are still being released to marginal countries, with two 
being released to Algeria just last week. Historical data also points 
to the fact that one in five released detainees returns to terrorist 
activities. Algeria's neighbor, Libya, has been on the State 
Department's list of nations which sponsor terrorism, and it is 
arguable that conditions in the region are ripe for a resurgence of 
terrorist activity. Given this, shouldn't we take a good hard look at 
to which countries we allow detainees to return? Additionally, should 
the list of nations with ``State Sponsored'' terrorism be updated and 
expanded to include those nations which provide terrorists with a safe 
haven?
    Mr. Coll. The United States should not return prisoners to 
countries with documented records of torture and prisoner abuse. As to 
``state sponsors'' of terrorism, whether it is that legal mechanism or 
another comparable one, it is important for the United States to make 
transparent and reasonable judgments about what the capacity of weak 
governments is to prevent their sovereign territory from becoming a 
sanctuary, and to hold governments accountable to a reasonable standard 
of action. It would be foolish to make policy on the basis of wishful 
thinking about the capacity of weak governments; equally, it would be 
foolish to appease or accommodate states that are doing less than they 
can to prevent terrorists from operating on their territory.
    Mr. Wilson. Much attention has been given, and rightfully so, to al 
Qa'ida's growth in the Middle East, Arabian Peninsula, and North 
Africa. However, many countries in South America are exhibiting signs 
of being ripe for the growth of terrorist movements: heavy narcotics 
trades, governments largely seen as illegitimate and growing 
unemployment. What are the opportunities to ensure we are not caught 
blindsided by the growth of terrorism in this region?
    Mr. Coll. Mexico provides an example of how instability and 
political violence caused by non-state actors can affect the interests 
of the United States even where terrorism against American citizens or 
interests is not at issue. Promoting the strength of democratic Latin 
American governments and ensuring equitable economic growth through 
trade, public investment, safety nets, and middle-class formation will 
provide the best opportunities for sustainable stability in the region.
    Mr. Wilson. In recent years, separatist groups, such as Somalia's 
al Shabaab, have pledged their support to al Qa'ida. Arguably, their 
pledge comes from financial and armament motivation, as opposed to 
aligned religious ideologies. With the increase in separatist movements 
in Northern Africa, in places such as Sudan, Eritrea, and Algeria, and 
domestic unrest with the al-Houthi rebellion in Yemen, what measures 
are, or may be taken, to prevent the spread of al Qa'ida's reach to 
these movements?
    Mr. Coll. Each of the cases mentioned here is distinctive and 
complex. Each must be examined in its specific setting. Promoting 
democracy, human rights and the rule of law as core American principles 
should be the bedrock foundation of fine-tuned regional strategies.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS
    Mrs. McMorris Rodgers. In December 2009 President Obama spoke at 
West Point and stated that ``our overarching goal remains . . . to 
disrupt, dismantle and defeat al Qa'ida in Afghanistan and Pakistan, 
and to prevent its capacity to threaten America and our allies in the 
future. To meet that goal . . . we must deny al Qa'ida a safe haven. We 
must reverse the Taliban's momentum and deny it the ability to 
overthrow the government.'' If Guantanamo Bay detainees are brought 
into the U.S. to stand trial, aren't we giving al Qa'ida a platform and 
opening ourselves up to risk of al Qa'ida taking a deeper interest and 
striking here in the United States?
    Mr. Clarke. [The information referred to was not available at the 
time of printing.]
    Mrs. McMorris Rodgers. Last week in Afghanistan, a suicide bomber 
attempted to gain access to the Afghan Central Bank, leaving half a 
dozen Taliban members and 5 Afghanis dead, including 3 security guards. 
From this attack on an Arab financial institution, can we surmise that 
terrorist groups and the Taliban are fighting separately and each are 
in need of financing? What steps does Afghanistan need to have in-place 
to protect its financial interests against extremist groups?
    Mr. Zarate. The attack on the Afghan Central Bank is less a 
reflection of the need for financing by the Taliban and more a symbolic 
attempt to hit one of the key institutions of the central government--
one that has garnered much support from the United States and the 
international community. Criminal ventures play a part in filling the 
Taliban's coffers, but the various factions of the Taliban and its 
leadership have multiple sources of funding--from the narcotics trade 
and hostage-taking to extortion and foreign donors. They will continue 
to use all means to fund their activities and the insurgency.
    Mrs. McMorris Rodgers. What can the U.S. do to assist Afghanistan, 
but especially Pakistan and Yemen, to improve their own efforts in 
preventing or stemming the flow of illicit funds to the al Qa'ida 
terrorist network?
    Mr. Zarate. Disrupting the flow of terrorist funds in active war 
zones or in less developed economies can often prove difficult, since 
the most effective tools the U.S. Government has to affect the flows of 
illicit funds through the international financial system are less 
effective in these contexts. That said, there are a number of things 
that can be done to help build the capacity of countries like 
Afghanistan, Yemen, and Pakistan to prevent the flows of funds to 
terrorist groups and actors--and steps the U.S. Government can take on 
its own.
    In the first instance, the United States must work directly with 
the host governments to apply financial regulatory scrutiny and 
enforcement resources on those individuals and entities--including 
charities--that have already been identified as serving as funding 
conduits for al Qa'ida, the Taliban, and related terrorist groups.
    Second, the United States can assist by creating targeted 
information and analysis for action. Over the past few years, the 
United States has done this well by creating field-based financial 
intelligence analysis units (``threat finance cells'') in Iraq and 
Afghanistan.
    Importantly, this also requires monitoring of cash flows into these 
countries--via couriers--as well as value transfer via the hawala 
system. This requires capable and willing customs officials and 
regulators who understand how cash is moved and how the hawaladars 
operate. These officials and their governments must then be willing to 
enforce effectively (and without corruption) relevant reporting and 
financial oversight laws.
    Creating asset forfeiture laws that provide bonuses and asset 
sharing for effective interdictions and application of the law can help 
incentivize and decrease the risks of corruption, if the programs are 
administered well. The United States and foreign entities, like the 
World Bank and IMF, have helped establish the framework for these 
efforts. In addition, the use of mobile banking and automatic deposits 
increases the security and transparency of payments and undermines the 
ability of corrupt or nefarious actors to use the flow of paper money 
to fund their activities.
    These efforts should dovetail with attempts to bring formal 
financial services into developing and poor economies. The advent of 
mobile banking technologies, as seen in Afghanistan and Southeast Asia, 
will help communities and individuals who had previously relied on 
informal methods of holding and moving money take an evolutionary leap 
toward formal banking. This trend will give authorities a better chance 
at monitoring, tracking, and disrupting the flow of some illicit 
transfers while ensuring that individuals have access to necessary 
banking services.

                                  <all>

</pre></body></html>
